<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                        WEDNESDAY, APRIL 3, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 8:55 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (Chairman) 
presiding.
    Present: Senators Murkowski, Blunt, Capito, Hyde-Smith, 
Daines, Udall, Tester, Merkley, and Van Hollen.

                    ENVIRONMENTAL PROTECTION AGENCY


              opening statement of senator lisa murkowski


    Senator Murkowski. Good morning, everyone. The subcommittee 
will come to order.
    We are kicking off the first of our hearings as they relate 
to Interior appropriations, and you are our invited guest. 
Congratulations, Administrator Wheeler, on your recent 
confirmation. Thank you for being here this morning, along with 
Holly Greaves, to discuss the fiscal year 2020 budget request 
for the Environmental Protection Agency.
    For those on the subcommittee, I think it is always good to 
set the order of process around here. We have always followed 
the early bird rule as long as I have been Chairman. So we are 
going to call on Members in order in which they arrive, going 
back and forth, for 5 minutes.
    Senator Udall. Tester is a serious early bird.
    Senator Murkowski. He is a very serious early bird, and we 
recognize that and appreciate that. You are correct about that. 
I am the one that is late. I am not the early bird this 
morning. So I am going to defer to you, in fact, when we start 
off.
    But the goal this morning and the reason we did start a 
little bit earlier, as we all know, we have a joint session 
that we are required to be at 10:40. I know the Administrator 
is hoping to attend that as well. So I would like to be able to 
wrap this up by 10:30.
    I know that there are a lot of different appropriations 
subcommittee meetings at the same time. We may both be popping 
in and out of them. So it is good to be able to start a little 
bit earlier.
    When I am home, I certainly see firsthand the impacts of 
EPA on the lives of Alaskans and the health of our communities. 
From restoring contaminated sites to ensuring clean drinking 
water, the EPA touches the lives of Americans across our 
Country every day, and that is why supporting EPA's core 
responsibilities of clean air, clean water, and clean land is 
so important.
    I do appreciate, Administrator Wheeler, the work that you 
have done on returning EPA to more of a back-to-basics 
management approach instead of pushing a one-size-fits-all 
regulatory agenda that exceeds the statutory authority of the 
EPA.
    We have seen within this administration a shift back to 
prioritizing programs with actual on-the-ground cleanup and 
real environmental benefits. I think you are on the right track 
there.
    The agency under your leadership must continue to implement 
a regulatory agenda that supports responsible development and 
robust environmental protections, achieved through a 
cooperative Federalism approach with the States and in 
consultation with the Tribes. Whether it is the work that the 
agency has done in revising the WOTUS rule or addressing the 
important issue of climate change, we must be partners in 
supporting the responsibilities of the agency.
    Turning to the fiscal year 2020 EPA budget, the budget 
request totals approximately $6.1 billion, nearly a 30 percent 
reduction. The agency's proposal is similar to past requests 
from this administration, and I underscore that it is just 
that. It is a proposal, and while I appreciate this budget's 
recognition of numerous programs that do have bipartisan 
support, many of the reductions would, in my view, be 
inconsistent with some of the back-to-basics approach that I 
just mentioned.
    Many of the grant programs that are critical to EPA's core 
mission of protecting the health of our communities are 
proposed for significant reductions. These grant programs lead 
to tangible environmental and human health benefits by 
supporting contaminated site cleanup, financing drinking water 
and sanitation infrastructure, and much more.
    I have worked hard with folks in my State over the years to 
really make sure that we are doing right by some of these 
smaller programs that have on-the-ground benefit and impact. 
The Targeted Airshed Grants program, which is helping to reduce 
air pollution for Alaskans, particularly in Fairbanks, is 
eliminated in this budget, and is a program that has a very 
direct and immediate benefit.
    In fact, I received a letter of support from one of the 
agencies up north reminding us that this is one of the few 
areas where they have been able to make some headway.
    The Alaska Native Village program is proposed for an 85 
percent reduction, even though this funding is critical to 
supporting the water infrastructure needs of Native Alaskans 
who face, as you know, pretty incredible costs of living based 
on transportation, just due to the remoteness. But EPA programs 
like this help meet those challenges. So I am going to continue 
to provide my attention and support to them.
    The agency's budget request makes large reductions to State 
grant programs, such as the Clean Water and Drinking Water 
State Revolving Funds, which I know is a concern to many of my 
colleagues here.
    I do appreciate that this request includes a proposal for a 
new $50 million grant program to study and resolve 
environmental hazards at our Nation's schools. I think this is 
something that is a mission well deserving of our support, so I 
am pleased that it is in there.
    While I do understand the tough budget environment this 
proposal was crafted in, the final budget for EPA, as crafted 
by Congress, I think will look substantially different than 
this request.
    As I mentioned earlier, Congress is a critical partner of 
the EPA on protecting the health of our communities and 
addressing the many environmental needs of our country.
    I look forward to working with you on implementing the 
budget that Congress will provide the EPA for fiscal year 2020.
    To close, I would like to thank you for your commitment to 
continue working with me on a number of the more parochial 
issues that face our State, such as fish grinding, small remote 
incinerators, and PM<INF>2.5</INF> in Fairbanks. You have heard 
about all of them many, many times, and know that I will be 
asking some questions about them this morning.
    Now I will turn to my Ranking Member, Senator Udall, and as 
I do, I just want to acknowledge, with your announcement that 
you are going to be retiring at the end of this Congress, know 
that it has been a privilege and a pleasure to work with you 
and your team on this subcommittee.
    I know we have a lot of work to do before we do real 
serious thank-yous, but as we are kicking off the beginning of 
this appropriations cycle, know how much I appreciate the good 
working relationship we have.


                     statement of senator tom udall


    Senator Udall. Thank you, Madam Chair. A real pleasure 
always to work with you.
    Administrator Wheeler, welcome today at your hearing as the 
EPA Administrator.
    I am sure it is a different day from when we sat here 1 
year ago with your predecessor, so I first want to acknowledge 
your efforts to restore basic communication with the Congress. 
While we have our disagreements, I do appreciate that today we 
can focus on the mission of the EPA.
    Now, it is no secret that I opposed your nomination to lead 
the EPA. I just do not think it is in the best interest of this 
Country for a former industry lobbyist to be in charge of 
agencies that regulate their former clients on environmental 
policy or anything else, a lobbyist who has advocated for 
easing and even dismantling protections for public health and 
the environment.
    While you have promised that your previous work poses no 
conflict of interest with your current position, your actions 
in leadership indicate that public health and the environment 
do not come first in your decisionmaking.
    But, Mr. Wheeler, you have been narrowly confirmed by the 
Senate, and today you testify before us as the Administrator of 
the EPA. And after nearly a year of experience as Acting 
Administrator, now it is time to examine the record.
    I am relieved that your predecessor is no longer dominating 
the news cycle with daily scandals, but the bottom line is that 
I do not see much of a change in terms of policy. I am deeply 
troubled that as Acting Administrator and now as the confirmed 
Administrator, you are continuing to implement this 
administration's devastating environmental agenda.
    First and foremost, this administration has abandoned all 
efforts to fight climate change, and you have personally 
doubled down on that by denying climate change is even a major 
crisis.
    Administrator Wheeler, climate change is a major and very 
real crisis. In fact, climate change is by far the most 
pressing crisis of our time.
    People are losing their homes, their land, their farms. We 
now have a new kind of refugee, ``climate refugees,'' displaced 
from their homes by catastrophic weather disasters, like 
drought and floods.
    In the West, we have less precipitation. Rivers and 
reservoirs are running at historic lows. Dry conditions are 
creating more wildfires.
    Look at the historic, devastating floods in the Midwest 
happening as we speak. In Puerto Rico, the death toll from the 
destructive Hurricane Maria was 2,975 American lives.
    The planet and the people living on it are suffering, 
especially those who can least afford to adapt.
    Yet instead of recognizing reality, right out of the gate, 
this administration began an all-out assault on efforts to 
fight climate change by blocking commonsense proposals to limit 
emissions from power plants, by halting efforts to control 
methane from oil and gas operations, by weakening fuel economy 
standards, and by walking away from the Paris Climate Accords.
    If you do not change course, this will be your legacy, and 
I do not think history will look upon this record very kindly.
    And it is not just climate policy that is so devastating. 
It seems there is not one rock overturned at the EPA where this 
administration has not taken an opportunity to roll back public 
health and environmental protections to benefit corporations 
and industry.
    Just recently, the agency dramatically scaled back proposed 
limits on a deadly chemical in paint strippers. While the 
chemical will be taken off the shelves in home improvement 
stores, the people who face the most risk, workers exposed to 
this neurotoxin every day, still have zero protections.
    At the center of this administration's action plan to 
protect the public from Perfluorooctane Sulfonate (PFOS) and 
related chemicals, which are associated with cancer, autoimmune 
diseases, and even resistance to vaccines, is a vague promise 
to start thinking about setting health standards sometime soon.
    Meanwhile, an estimated tens of millions of Americans are 
drinking water that contain these substances at levels much 
higher than what independent scientists and even the Centers 
for Disease Control consider to be safe.
    And that is not to mention impacts like the farmers in New 
Mexico who are being forced to destroy hundreds of thousands of 
gallons of contaminated milk and euthanize thousands of cattle.
    EPA also recently declared that it is no longer appropriate 
and necessary to limit mercury and other toxic air pollution, 
pollution that is known to poison fetuses and children. EPA's 
decision paves the way to undermine basic public health 
standards. That is why it immediately drew bipartisan 
opposition in Congress.
    And contrary to a court order, EPA recently decided to let 
the hard-rock mining industry shirk financial responsibility 
for the environmental cost of doing business, even though 
damages from abandoned mines have cost taxpayers billions of 
dollars.
    The nonpartisan Government Accountability Office just 
recently reported that EPA political appointees directly 
interfered with EPA scientists' important work related to 
evaluating the hazards of chemicals we come in contact with 
every day.
    And we are still waiting for EPA to make good on its 
promise to take care of people and farmers, including New 
Mexicans and members of the Navajo Nation who were harmed by 
the Gold King Mine spill. Another promise broken.
    When it comes to the budget, it is just one more of the 
same. The administration for the third year in a row proposes 
devastating cuts to the EPA.
    It is unconscionable to me that the agency responsible for 
protecting public health would propose to scale back on the 
very scientific research that helps us identify threats and 
understand to minimize them. But this budget requests a cut of 
43 percent to EPA research.
    The budget also proposes a cut of 12 percent to the 
enforcement laws designed to protect the water we drink and the 
air we breathe. The proposed cut to enforcement even includes 
criminal activities like illegally dumping sewage into drinking 
water sources. I fail to understand how we need less investment 
in keeping environmental cops on the beat.
    The budget exposes the administration's rhetoric about 
deferring to State-level environmental efforts is completely 
phony. The budget proposes to cut more than a third, a total of 
$1.5 billion, from States and Tribes.
    Yet another fake promise from this administration is 
infrastructure funding. A quick look at the budget request 
shows an $875 million cut to water infrastructure. That is more 
than a 30 percent cut.
    I would like to talk about these proposed cuts today, but 
to be honest, I am tired of the now commonplace responses from 
the representatives of this administration in budget hearings. 
We hear repeatedly, year after year, that they would be ``happy 
to work with Congress on final spending levels.'' It is a wink 
and the nod that the budget request is not really real. But 
that, I submit to you, makes a mockery of the process.
    Budgets are statements of policy priorities, and proposed 
cuts of this terrible degree show us in clear print what this 
administration is about: Industry comes before public health 
and environmental protection. There is no wink or nod or 
announcement at a rally that can undo that.
    I continue to be thankful that this subcommittee has stuck 
together, really appreciate working with the Chairman on 
priorities that the American people really care about, and 
doing things on a bipartisan basis and rejecting these drastic 
proposals.
    But the agency is still suffering. Morale is at an all-time 
low among EPA scientists and other experts, and staffing levels 
are waning because despite Congress rejecting budget cuts, the 
agency is not hiring new staff when previous staff depart.
    I know, Administrator Wheeler, you have a lot to say today 
on your funding priorities for EPA, important things we can all 
agree on like improving the health of school facilities and 
reducing lead in drinking water, but I want to be clear that 
these should not and will not distract the American people from 
the failures of this administration to fight climate change and 
protect public health.
    I look forward to our discussion today, and thank you, 
Madam Chair, for those very kind comments early on and look 
forward to working through this budget process with you.
    Senator Murkowski. Thank you, Senator Udall.
    Administrator Wheeler, you have got a lot that goes on 
within the Department, a lot that is, as you know and we know, 
very important to people throughout the Nation. So if you would 
please commence your comments this morning with regards to the 
President's fiscal year 2020 budget.
STATEMENT OF HON. ANDREW WHEELER, ADMINISTRATOR
ACCOMPANIED BY HON. HOLLY GREAVES, CHIEF FINANCIAL 
            OFFICER

    Mr. Wheeler. Thank you, Chairman.
    Good morning, Chairman Murkowski and Ranking Member Udall 
and Members of the subcommittee. I am joined today by Holly 
Greaves, my CFO, and we are here today to discuss EPA's 
proposed 2020 budget.
    The budget request ensures that the agency can continue 
President Trump's bold agenda and the tremendous progress we 
have made over the past 2 years. The U.S. is a global leader in 
clean air and access to safe drinking water, and we are 
cleaning up contaminated lands at the fastest pace in over a 
decade.
    At the same time, EPA has finalized 38 deregulatory 
actions, saving Americans more than $3 billion in regulatory 
costs. We have an additional 39 actions in development to save 
billions more. The Trump administration is proving that 
environmental protection and historic economic growth can go 
hand in hand.
    My testimony will highlight how the President's budget 
would continue this progress. I believe that water issues, from 
drinking water to marine litter to infrastructure, are the 
largest and most immediate environmental issue affecting the 
world today. The budget request provides critical support for 
water quality protection.
    One challenge we face is lead exposure. Through the new 
Federal Lead Action Plan, EPA is coordinating with our Federal 
counterparts to reduce childhood lead exposure.
    On Monday, we issued a status report to hold ourselves 
accountable to the public and clearly communicate the steps we 
are taking to implement the action plan. To bolster these 
efforts, the budget proposes $50 million to establish a new 
Healthy Schools Grant program to reduce exposure to lead or 
other toxics in schools.
    We are also moving forward to update the lead and copper 
rule for the first time in over two decades. Our proposal will 
ensure that we address the most corrosive pipes in the most at-
risk communities first.
    Another challenge is addressing potential sources of 
contamination. In February, EPA released its Polyfluoroalkyl 
Substances (PFAS) Action Plan, the most comprehensive 
multimedia research and action plan ever issued by the agency 
to address an emerging chemical of concern.
    On the marine litter issue, billions of pounds of waste 
enter our oceans each year, harming marine life and coastal 
economies. EPA's Trash Free Waters program is stepping up to 
help the international community capture marine litter or 
prevent it from reaching the ocean.
    On infrastructure, the President's budget includes a 25 
percent increase to Water Infrastructure Finance and Innovation 
Act (WIFIA) from last year's request. This new program is 
already producing tremendous results. To date, EPA has issued 
eight WIFIA loans totaling more than $2 billion in Federal 
credit assistance.
    Last week, we announced our third round of funding, which 
could support $12 billion in water infrastructure projects and 
create more than 180,000 jobs.
    To expand on these efforts, President Trump signed 
America's Water Infrastructure Act, AWIA. While funding for 
AWIA was not included in the fiscal year 2019 appropriations 
that Congress enacted, EPA proposes funding of $83 million in 
this budget request to begin implementation of the law.
    The budget request also includes approximately $2 billion 
in Federal dollars towards the two State Revolving Funds 
(SRFs). The combination of Federal grants, State matches, 
repayments, and interest all flow back into each revolving 
fund, creating $80 billion in the nationwide fund as of today, 
well beyond the annual SRF investments.
    Regarding the Great Lakes Restoration Initiative, as the 
President stated, this is a unique and important program. I 
fully support his decision as it relates to funding the 
program.
    When it comes to reducing air pollution, we are moving 
forward with commonsense reforms that will help more 
communities reach attainment of the National Ambient Air 
Quality Standards (NAAQS) standards. For example, we are set to 
announce that the Cleveland area is now meeting the standards 
for particulate matter later this week.
    The cleanup of contaminated lands also plays a crucial role 
in revitalizing communities throughout the country. In fiscal 
year 2018, EPA deleted all or part of 22 sites from the 
National Priorities List, the largest number of deletions in 1 
year since fiscal year 2005.
    Our next responsibility is ensuring that chemicals used in 
commerce and sold in the marketplace are safe for public use. I 
am proud to report that EPA continues to meet the major 
statutory deadlines of the amended Toxic Substances Control Act 
(TSCA).
    Earlier this month, we finalized a ban on the retail sale 
of methylene chloride for consumer paint and coating removal, 
the first risk management action under Section 6 of the amended 
TSCA.
    To ensure our efforts are effective and durable, EPA has a 
healthy and robust enforcement program. At one end of the 
spectrum, we are increasing compliance through self-audits, 
which are often the quickest way to correct environmental 
harms. At the other end of the spectrum, we are deterring 
noncompliance by increasing the number of new criminal cases, 
reversing a downward trend that began in 2011.
    We want the public to know that when they encounter 
environmental threats, we will address them head on, and we 
want the world to know that when they encounter environmental 
threats, we are ready to help, this type of leadership, that 
gives confidence to the public, the regulated community, and 
our allies around the globe.
    Thank you for the opportunity to speak with you today, and 
I look forward to answering your questions.

    [The statement follows:]
              Prepared Statement of Hon. Andrew R. Wheeler
    Good morning, Chairman Murkowski, Ranking Member Udall, and Members 
of the subcommittee. I am joined by Holly Greaves, EPA's Chief 
Financial Officer, and we are here today to discuss the Environmental 
Protection Agency's (EPA's) proposed fiscal year 2020 budget, which 
supports the goals and objectives in the Fiscal Year 2018-Fiscal Year 
2022 EPA Strategic Plan.
    The fiscal year 2020 budget request reflects President Trump's 
vision of responsible stewardship of taxpayer dollars and critical 
investments in the Nation's health, safety, and long-term prosperity. 
The Budget supports ongoing work at EPA to reduce unnecessary 
regulatory burdens while investing in areas that demand greater 
attention, such as protecting children from lead exposure and other 
environmental harms through a new Healthy Schools Grant Program and 
providing funding to begin implementing the America's Water 
Infrastructure Act (AWIA).
    The proposed budget ensures that the Agency can continue the 
President's bold agenda and the tremendous progress we have made over 
the past 2 years. The U.S. is a global leader with respect to clean air 
and access to safe drinking water, and we are cleaning up contaminated 
lands at the fastest pace in over a decade. At the same time, EPA has 
supported the President's record economic gains by finalizing 38 
deregulatory actions and saving Americans more than $3 billion in 
regulatory costs. We have an additional 39 actions in development 
projected to save billions more in regulatory costs. The Trump 
administration is proving that environmental protection and historic 
economic growth can go hand-in-hand.
    In my testimony, I will highlight how the President's budget would 
continue this progress.
    I believe that water issues, from drinking water to marine litter 
to infrastructure, are the largest and most immediate environmental and 
public health issues affecting the world right now. The budget request 
provides critical support in the area of water quality protection.
    Right now, over 2 billion people worldwide lack access to safe 
drinking water and proper sanitation, leading to anywhere from 1 to 3 
million deaths every year. And those most likely to die from a lack of 
safe drinking water are young children. According to the United 
Nations, nearly a thousand children die every day due to preventable 
water and sanitation-related diseases. We believe that these children 
deserve our immediate attention, and we are elevating our work with our 
Federal partners, like USAID, to improve global water security.
    Here in the U.S., we have made tremendous progress on this front. 
In the 1970s, more than 40 percent of our Nation's drinking water 
systems failed to meet even the most basic health standards. Today, 
over 92 percent of community water systems meet all health-based 
standards, all the time.
    We still face challenges, however. Our Nation's children are 
particularly vulnerable to the health impacts of unsafe drinking water, 
especially lead exposure. Through the new Federal Action Plan to Reduce 
Childhood Lead Exposures and Associated Health Impacts, EPA is 
coordinating with our Federal counterparts to reduce exposure to lead 
where children live, learn, and play.
    To bolster these efforts, the fiscal year 2020 budget proposes $50 
million to establish a new Healthy Schools Grant Program. This flexible 
grant program will help our State and local partners, including school 
systems and administrators, minimize asthma triggers, reduce exposure 
to lead or other toxics, and ensure children have access to clean and 
safe learning environments. This new program is a top priority for the 
Agency, and we look forward to partnering with Congress to advance this 
effort.
    We are also moving forward to update the Lead and Copper rule for 
the first time in over two decades. We will get this rule out in the 
summer of 2019, and we will get it done right. Our proposal would 
ensure that we address the most corrosive pipes in the most at-risk 
communities first. These communities can't afford to wait 5, 10, or 20 
years to have their lead pipes replaced. EPA staff is currently 
monitoring and mapping the location of the highest-risk lead pipes so 
we can focus our work on the most impacted areas of the country first.
    The other dimension of our water challenges is our ability to 
identify and address potential sources of drinking water contamination. 
Source protection can reduce the need for additional drinking water 
treatment and avoid the associated costs. EPA is stepping up its 
leadership on this front as well.
    In February, EPA released its Per- and Polyfluoroalkyl Substances 
(PFAS) Action Plan. We utilized each of our program offices to produce 
the most comprehensive, multi-media research and action plan ever 
issued by the Agency to address an emerging chemical of concern. And 
for the first time ever, we held simultaneous press conferences in all 
10 of our Regional Offices to roll out the plan. This will be our 
approach moving forward on issues of emerging concern.
    On the marine litter issue, billions of pounds of waste enter our 
oceans each year, harming marine life and coastal economies. Through 
programs like Trash Free Waters, EPA is helping foreign governments and 
organizations capture marine litter or prevent it from reaching the 
ocean in the first place. When I travel to the G7 in France in May and 
the G20 in Japan in June, I will make the issue of marine litter a 
priority.
    On infrastructure, we estimate that more than $700 billion will be 
needed to upgrade water infrastructure in the U.S. alone over the next 
20 years. The President understands that modernizing our Nation's aging 
infrastructure is critical to public health and prosperity. At EPA, 
this means that we will continue to make investments in water 
infrastructure that not only safeguard our Nation's precious water 
resources but also create well-paying jobs and ensure taxpayer dollars 
achieve the maximum return on investment.
    The fiscal year 2020 budget includes a 25 percent increase to the 
Water Infrastructure Finance and Innovation Act (WIFIA) program from 
last year's request. The $25 million, including $20 million in credit 
subsidy, provided for WIFIA could deliver more than $2 billion in 
direct credit assistance, which, when combined with other funding 
resources, could spur over $4 billion in total infrastructure 
investments.
    This new program is already producing tremendous results. To date, 
EPA has issued eight WIFIA loans totaling more than $2 billion in 
Federal credit assistance. Not only will these funds improve public 
health for hundreds of thousands of Americans, it is also estimated 
these projects will create over 6,000 jobs. This is just the beginning. 
This past year, we invited an additional 39 projects across the Nation 
to apply for WIFIA loans, which, when approved and combined with other 
funding sources, could help finance over $10 billion dollars in water 
infrastructure and create up to 155,000 jobs.
    While most water systems consistently provide safe and reliable 
drinking water, many small systems face their own unique challenges. To 
address these needs, President Trump signed the bipartisan America's 
Water Infrastructure Act of 2018 (AWIA) on October 23, 2018. While 
funding for these important new mandates was not included in the fiscal 
year 2019 budget Congress recently enacted, EPA proposes funding of $83 
million in this budget request to begin implementation of the law, 
including five new grant programs. Funding AWIA would expand EPA's 
ability to invest in water infrastructure in even more communities 
across the country.
    The budget request also includes approximately $2 billion in 
Federal dollars towards the two State Revolving Funds (SRFs) to assist 
our implementing partners in rebuilding aging water infrastructure. The 
combination of the Federal capitalization grants provided over more 
than 20 years, required State match, loan repayments, and interest 
flows back into each State revolving fund, creating approximately $80 
billion currently revolving at the State level. This recycling of funds 
results in additional funding available well beyond the annual Federal 
investment in both SRF programs. Across the SRFs, WIFIA loans, and the 
new AWIA programs, we are providing robust support for water 
infrastructure project investments.
    When it comes to reducing air pollution, we are moving forward with 
common-sense reforms that will help more regions throughout the Nation 
reach attainment of the National Ambient Air Quality Standards (NAAQS).
    Areas in nonattainment face a variety of consequences, including 
increased regulatory burdens and restrictions on infrastructure 
investments. The Agency is working across multiple fronts to bring 
these areas into attainment, such as converting Federal Implementation 
Plans (FIPs) into State Implementation Plans (SIPs) or aggressively 
tackling the backlog of SIPS we inherited. The Agency has converted an 
average of almost one FIP into a SIP each month since March 2017. The 
Trump EPA inherited a backlog of more than 700 SIPs, and we've taken 
final action on over 400 SIPs to date.
    We are also moving forward with the Cleaner Trucks Initiative. 
Since 2000, nitrogen oxide (NOx) emissions in the U.S. have been 
reduced by 52 percent. However, it is estimated that heavy-duty trucks 
will be responsible for one-third of NOx emissions from transportation 
in 2025, and it's been nearly 20 years since EPA last set NOx emissions 
standards for heavy-duty trucks. By working closely with States and the 
private sector, we will reduce NOx emissions from heavy-duty trucks, 
which is not required by statute or court order, but will help 
nonattainment areas reach attainment.
    The cleanup and redevelopment of contaminated lands play a crucial 
role in revitalizing communities throughout the country. I'm proud to 
report that in fiscal year 2018, EPA deleted all or part of 22 sites 
from the National Priorities List (NPL), the largest number of 
deletions in 1 year since fiscal year 2005. We believe that a site on 
the National Priorities List should be just that--a national priority. 
If it has languished on the NPL for decades, then it was not a 
priority. We are changing that. We are in the process of cleaning up 
some of the Nation's largest, most complex sites and returning them to 
productive use.
    While the Agency continues to request robust funding to revitalize 
lands, it's important to remember that annual appropriations are just 
one source of funding to help facilitate the cleanup and restoration of 
contaminated lands. In 2018 alone, the Superfund Enforcement program 
secured private party commitments totaling $613 million. Approximately 
60 percent of ongoing remedial construction projects are performed by 
Potentially Responsible Parties. EPA's enforcement program continues to 
encourage private investment in the cleanup and reuse of sites.
    Our next responsibility is ensuring that chemicals used in commerce 
and sold in the marketplace are safe for public use. I'm proud to 
report that EPA continues to meet the major statutory deadlines of the 
amended Toxic Substances Control Act (TSCA).
    We've issued rules addressing the prioritization process, the risk 
evaluation process, and the TSCA inventory, while also developing a new 
fees program.
    Not only that, we are well on our way to completing draft risk 
evaluations for the first 10 chemicals; we published a final strategy 
to reduce animal testing; we published a final mercury reporting rule; 
we released three sets of guidance regarding confidential business 
information; and we released an updated Chemical Substance Inventory.
    We recently announced the next 20 high and 20 low existing 
chemicals that we will prioritize for risk evaluation. In fiscal year 
2020, the Agency will begin risk evaluations for the next round of 20 
high-priority chemicals.
    In terms of risk management, earlier this month, we finalized a ban 
on retail sales of methylene chloride for consumer paint and coating 
removal--the first risk management action under Section 6 of amended 
TSCA. After analyzing the health impacts and listening to affected 
families, we took action to protect retail consumers.
    As for new chemicals, we are reviewing submissions consistent with 
the statute while increasing the transparency of our decisions. We are 
committed to reducing our backlog of approximately 400 new chemical 
submissions within 6 months. What EPA is accomplishing should give 
confidence to American consumers and certainty to the manufacturers.
    To ensure that our actions are effective and durable, EPA is 
assisting the regulated community in attaining and maintaining 
compliance with environmental laws and, where necessary, punishing 
actors that do not comply with those laws.
    At one end of the spectrum, we are increasing compliance through 
self-audits, which are often the quickest way to correct environmental 
harms. At the other end of the spectrum, we are deterring non-
compliance by stepping up criminal cases. We increased the number of 
new criminal cases in fiscal year 2018, reversing a downward trend that 
began in 2011.
    In fiscal year 2018, EPA enforcement actions required the 
treatment, disposal, or elimination of 809 million pounds of pollutants 
and waste--almost twice as much compared to 2017. And in January, EPA 
and the Department of Justice announced a $490 million settlement with 
Fiat Chrysler for cheating U.S. emissions standards. We will vigorously 
enforce our Nation's environmental laws, and we will ensure that 
hardworking Americans that follow the law and play by the rules do not 
suffer a competitive disadvantage.
    Within the Agency itself, we are improving how efficiently and 
effectively we carry out our core responsibilities. In fiscal year 
2018, the Agency introduced the EPA Lean Management System (ELMS), 
which has enhanced the Agency's performance management framework. For 
the first time, EPA is reviewing its performance via new measures and 
taking corrective action on a monthly, rather than annual, basis. We 
created over 600 performance measures across all national programs and 
regional offices. We're already beginning to see dramatic improvements, 
such as reducing the backlog of new permit applications older than 6 
months by 34 percent between June and November 2018. The deployment of 
ELMS will help us maximize the skill sets of EPA staff and ensure that 
we are agile and responsive to the needs of all Americans.
    We want the public to know that when they encounter environmental 
threats, we will address them head on. And we want the world to know, 
that when they encounter environmental threats, we are ready to help. 
This is the type of leadership that gives confidence to the public, 
certainty to the regulated community, and reassurance to our allies 
around the globe. This is the type of leadership you can expect from 
President Trump and his administration. Thank you for the opportunity 
to speak with you today. I look forward to answering your questions.

                      PFOS AND PFOA CONTAMINATION

    Senator Murkowski. Thank you, Administrator.
    Let me begin my questions. This relates to something that 
Senator Udall has raised. I have raised it by way of letter. I 
think many of us on the subcommittee have because so many 
around the country are realizing the challenges that our 
communities are facing when it comes to PFOS contamination.
    In my State, we have communities like Utgiagvik, Fairbanks, 
Dillingham, Gustavus, that are seeing groundwater that has been 
contaminated with PFOS, largely due to the use of this 
chlorinated firefighting foam.
    So you have released this PFAS Action Plan. There are some 
promises out there with regards to declaring certain compounds 
as hazardous, but can you give the committee some estimate in 
terms of EPA's timeline for listing PFOS or any of the 
compounds as hazardous substances, and really what are these 
comprehensive steps?
    You have indicated in your testimony here this morning that 
there is going to be a media rollout. What are we going to see?
    Mr. Wheeler. Senator, first of all, I want to assure you 
and the subcommittee that while we are developing the hazardous 
waste for PFOS, PFOA, and the different compounds, as well as 
looking at the groundwater standards to include under Toxics 
Release Inventory (TRI) for releases, we are still enforcing. 
We are still enforcing our health advisory of 70 parts per 
trillion. We have taken, I believe, eight enforcement actions 
along with the States, and have assisted the States and local 
communities in dozens of other enforcement actions.
    Where we see PFOS, where we find it, where it is a threat 
to drinking water, we are ensuring that it is cleaned up. We 
are actually using state-of-the-art Geographic Information 
System (GIS) mapping technologies to determine where we believe 
it is. We know the chemicals were produced, in large part, in 
Parkersburg, West Virginia, as well as Cape Fear, North 
Carolina. We also know the areas where it was used the most--
airports and Department of Defense facilities.
    So we are using our GIS tracking to map where we believe 
PFOS is laying on top of groundwater and drinking water 
systems, to identify the communities that may be at risk and 
then helping them look to see if they do have a problem with 
their drinking water, and where we are finding it, we are 
enforcing.
    So we are not stopping enforcement of cleaning up PFOS and 
PFOA, where we find it, while we work on additional tools. We 
have a number of tools that we already are using, such as the 
health advisory of 70 parts per trillion.
    At the same time, our research office is doing more 
research on identifying where the chemicals are and identifying 
which types. There is over, I believe, 2,000 different PFOS/
PFOA substances, long chain, short chain. We are trying to 
determine which of those have the most health risk.
    It is also important to note that the cleanup technologies 
differ depending on the type of PFOS and PFOA chemical compound 
itself. We cannot use the same cleanup technology for all of 
the PFOS/PFOA compounds.
    I have been at our Research Triangle Park (RTP) lab in 
North Carolina and met with our researchers there. I have also 
met with our researchers in some of our other regional labs. 
Last week, I was at our Cincinnati lab, where they are doing 
some groundbreaking research on how to clean up the PFOA/PFOS 
chemicals, how to identify where they are and how to identify 
which ones are the most harmful to the public health.
    So we are setting the standards. We are working with the 
States and other agencies that have the standards and other 
health advisories for PFOS/PFOA.
    We are still enforcing our health advisory. We are actually 
actively looking to see where we are able to help those 
communities. We are also conducting important research that 
will help us identify which ones are the most harmful, how we 
clean up, and the best technologies to clean them up when we 
find them.

                 DIESEL GENERATORS--TIER 4 REQUIREMENT

    Senator Murkowski. Well, I appreciate that update. Folks 
that I am talking to say, ``We know that we have a serious 
issue here, but how do we even get started?'' So being able to 
identify, map, and obviously address it is going to be 
critically important going forward. I know you are going to 
have other questions on that.
    Let me just ask one more quick question, and this is 
something that I never thought that I was going to have to ask.
    I was born down in Ketchikan, Alaska. It is a rainforest 
down there. It is truly a rainforest. Well, in this rainforest, 
in the Tongass, we are seeing a drought this past year. The 
communities of Ketchikan, Wrangell, and Petersburg are 
communities that primarily rely on hydroelectric power, and 
they have faced some significant energy shortages resulting 
from these drought conditions in a rainforest, crazily enough.
    This is something that we hope is not a new normal. All of 
these communities are not connected by any kind of a power grid 
or a transmission system; they are all islands there. They rely 
on diesel generation as backup for the community.
    EPA gives Title V air quality permits to power plants that 
allow them to operate during certain hours, establishing 
allowable diesel generation operating hours, and many of these 
plants in southeast Alaska normally only use a fraction of 
these permitted operating hours in a year. But because of this 
drought and our water reservoir levels being so low, we are 
seeing increased diesel generation use.
    What I need from you this morning is a commitment to work 
with us to see if there is any relief for these affected 
communities that are dealing with challenges with regard to the 
operating hours, whether it is the city of Ketchikan or some of 
the others.
    I do not know if there are other options out there, but I 
would like you to be working with us on this because it is a 
serious challenge for them right now.
    Mr. Wheeler. Absolutely, Senator. We are working to provide 
regulatory relief for the owners and operators of these diesel 
generators in remote areas of Alaska, and we do plan to take 
action shortly to amend the regulations to remove the 
problematic Tier 4 requirements that apply for remote areas of 
Alaska.
    Senator Murkowski. Well, I appreciate that, and I know the 
communities will look forward to that as well.
    Let me turn to Senator Tester, the early bird.

                          PFOA/PFOS COMPOUNDS

    Senator Tester. Yes. Well, thank you, Madam Chair, and 
thank you for being here, Mr. Wheeler. I appreciate you being 
here.
    I was not going to ask about PFOS, but the chairlady has 
brought it up.
    You guys said you were detecting it, and you are cleaning 
up where found. Has it been banned?
    Mr. Wheeler. Yes. There was----
    Senator Tester. So you are saying----
    Mr. Wheeler [continuing]. Some of the material----
    Senator Tester. Some of the material has been banned, but 
they are still using PFOS in firefighting?
    Mr. Wheeler. Yes. Some of the PFOS/PFOA compounds, but 
there are thousands of them. The worst ones were banned a 
number of years ago.
    Senator Tester. So I guess what I am saying is that if you 
are looking on detecting it and cleaning it up, that is fine, 
but why are we not banning the cause so you do not have to do 
that, so it is done? It causes cancer. Is there a problem with 
it? I mean, if the problem----
    Mr. Wheeler. The worst substances were banned a number of 
years ago. They are ubiquitous in consumer products and the 
environment----
    Senator Tester. So what you are saying is today, the stuff 
that has been used in the firefighting foam does not cause 
cancer or liver disease?
    Mr. Wheeler. I would have to get back to you on the exact 
ones that are in the firefighting foam. There is a number----

    [The information follows:]
                number of pfoa/pfos in firefghting foam
    PFAS chemicals continue to be used in firefighting foam (AFFF--
Aqueous Film Forming Foam), although the types of PFAS used in AFFF 
appear to be changing. At this time, EPA does not have all the 
information needed to provide a comprehensive list of all PFAS 
chemicals that are potentially used in AFFF.

    Senator Tester. So the point here is that I think it is 
much easier to do preventative medicine than to do post and----
    Mr. Wheeler. We are looking at a Significant New Use Rule 
for the PFOS/PFOA as well to make sure that as the substitutes 
come to the marketplace that we are reviewing those substitutes 
before.
    Senator Tester. Thank you.
    Are you familiar with Libby?
    Mr. Wheeler. Yes, I am.

                  RISK EVALUATION REPORT--FINALIZATION

    Senator Tester. Montana. Okay. So you know that its 
asbestos, incredible impacts, serious problem.
    You have a document coming out called the ``Problem 
Formulation of Risk Evaluation for Asbestos.'' You are familiar 
with that, I assume?
    Mr. Wheeler. Yes, Senator.
    Senator Tester. Okay. So it lays out how devastating 
asbestosis is, mesothelioma, cardiovascular, pulmonary, 
immunodeficiency disease. The list goes on.
    Do you plan on finalizing that risk evaluation by December 
of this year?
    Mr. Wheeler. Asbestos is one of the first 10 chemical 
substances that we are looking at under TSCA.
    Senator Tester. Yes.
    Mr. Wheeler. We find it very important.
    Senator Tester. Yes.
    Mr. Wheeler. We noted----
    Senator Tester. Do you plan on finalizing that report by 
December of this year?
    Mr. Wheeler. That is the goal. With the----
    Senator Tester. Okay.
    Mr. Wheeler [continuing]. Shutdown in January, we are a 
little behind on that, but----
    Senator Tester. But your budget also cuts that review 
account by 28 percent, nearly one-third. Is that going to have 
any impact on finalizing the Risk Evaluation Report?
    Mr. Wheeler. No, it should not have an impact on finalizing 
it.
    We are also doing a Significant New Use Rule because we 
noted that there is a gap where some----
    Senator Tester. When do you anticipate----
    Mr. Wheeler [continuing]. Asbestos products could be 
imported.
    Senator Tester. How long after the--how long after the Risk 
Evaluation Report has been finalized do you anticipate it will 
take to pull asbestos off the market?
    Mr. Wheeler. Well, as I noted, we also have a Significant 
New Use Rule to try to stop the importation of new asbestos 
products into the United States.
    Senator Tester. Yes, but that is not the question.
    Mr. Wheeler. It is the first time any administration----
    Senator Tester. I want to know when it is going to be----
    Mr. Wheeler [continuing]. Has addressed this----
    Senator Tester [continuing]. Pulled off the market.
    Mr. Wheeler [continuing]. Since the early 1990s.
    Senator Tester. We got people dying from this, okay? And it 
is not a pleasant death. Why is it out there? Everybody knows 
what the problem is. Why are we not pulling it off the market? 
You are doing a risk evaluation.
    Mr. Wheeler. We are.
    Senator Tester. You said it would be done by December. 
Should it not be pulled off the market?
    That risk evaluation, by the way, I think is going to be 
absolutely rock solid, no brainer, because the evidence is 
there. How long will it take you to pull it off?
    Mr. Wheeler. I cannot prejudge a risk assessment before it 
is finished.
    Senator Tester. I can.
    Mr. Wheeler. We get into people----
    Senator Tester. And so if it is rock solid, how long will 
it take to pull it off?
    Mr. Wheeler. If it is rock solid, we will move quickly to 
pull it off the market.
    Senator Tester. Is that a month?
    Mr. Wheeler. I will have to get back to you on the exact 
timing of how long. We are dealing with a new TSCA which has 
never been implemented before.

    [The information follows:]
                  risk evaluation report--finalization
    Section 6 of the Toxic Substances Control Act (TSCA), as amended by 
the Frank R. Lautenberg Chemical Safety for the 21st Century Act, 
provides EPA with the authority to prohibit or limit the manufacture, 
processing, distribution in commerce, use, or disposal of a chemical if 
EPA evaluates the risk and concludes that the chemical presents an 
unreasonable risk to human health or the environment. EPA shares your 
concern about potential risks from asbestos and is currently reviewing 
asbestos as one of the initial 10 existing chemicals for review under 
amended TSCA. If EPA's risk evaluation identifies unreasonable risk for 
one or more of the uses considered in the risk evaluation, TSCA 
requires EPA to finalize a regulation to address those risks identified 
within 2 years with an option to extend the final regulation by an 
additional 2 years.

    Senator Tester. Gotcha.
    Mr. Wheeler. This is the first set of 10 chemicals ever put 
through the program.
    Senator Tester. I gotcha. All right. Asbestos has been 
around for a long time, though. Clean air----
    Mr. Wheeler. We are the first administration to address 
this in 25 years.
    Senator Tester. All right. I got it, and I appreciate that. 
But because they did not does not mean we should not, okay?
    Mr. Wheeler. Right.

                        BUTTE SUPERFUND CLEANUP

    Senator Tester. All right. Clean air and clean water is 
something really important. We are just talking about air with 
Libby. Let us talk about water.
    Your predecessor said that Superfund cleanup was going to 
be one of his top priorities, and by the way, for all the 
criticisms put on your predecessor, he actually was moving 
forward with the Butte Superfund cleanup and Berkeley Pit in a 
positive way, talking with people on the ground, doing some 
things that are positive.
    Is Superfund cleanup still a priority for you?
    Mr. Wheeler. Absolutely. I am the first EPA Administrator 
to visit Butte----
    Senator Tester. Thank you.
    Mr. Wheeler [continuing]. And Anaconda in over 20 years.
    Senator Tester. Appreciate that.
    Right now, Butte has got one employee on the site for a few 
days a week. Your Superfund budget is going to be cut by over 
$100 million. How do you square that with cleaning up a 
Superfund site?
    Mr. Wheeler. Looking at our budget and looking at the 
resources, we have the people and the resources we need to get 
it cleaned up. Butte is on schedule to be cleaned up with 
deletion by 2024. We do not believe the budget will impact that 
at all.
    Senator Tester. Okay. So you are telling me that one 
employee on the site for only a few days a week now with this 
budget and the budget coming up for next year being $100 
million less is going to keep that on schedule for cleanup?
    Mr. Wheeler. That one employee is not the only employee 
working on this site. We have a Montana field office with four 
or five employees. Last week, I was in Denver, and I had a 
conference call with the Butte and Anaconda teams----
    Senator Tester. Yes.
    Mr. Wheeler [continuing]. Along with our Denver staff who 
are working on cleaning it up and our Washington, D.C., staff. 
We probably had 30 staff involved in both of those sites on the 
call.

                            CLARK FORK RIVER

    Senator Tester. Good. I appreciate your attention to it.
    I just want to make a real quick comment because I am over 
time, but there is a piece of land that was operated by 
Smurfit-Stone, west of Missoula, Montana, on the flood plain of 
the Clark Fork River. I would ask you to put that on your radar 
if it is not already on your radar.
    This is a piece of property that has chemicals buried on 
it. We do not believe the barrels have broken open yet and 
dumped into the Clark Fork, but at the point they do, it 
becomes a much more expensive cleanup. And if there is an 
opportunity for you guys to get in there--and there are still 
people alive that know that site--and find out where that stuff 
is, as much as you possibly can, it may save a lot of heartache 
down the road.
    Thank you for being here, Mr. Wheeler.
    Mr. Wheeler. Thank you, Senator.
    Senator Murkowski. Thank you, Senator.
    Senator Hyde-Smith.

                        FLOODING IN MISSISSIPPI

    Senator Hyde-Smith. Thank you, Madam Chairman, and thank 
you, Mr. Wheeler, for being here for sure. Thank you for taking 
the time to speak with me on the telephone--I think it was 
March the 21--about the catastrophic flooding that we are 
having in Mississippi.
    You have been so excessive, and you have been--I have 
been--had the opportunity to visit with you for--at length on 
the telephone. So I appreciate you being accessible to me 
during that time.
    Unfortunately, the flooding, which began on February the 
15, continues today, and we had Acting Administrator for EPA 
Region 4, Mary Walker, to join me on a flight on March the 19 
to fly over with the Corps of Engineers to observe the damage, 
and I certainly appreciate that time there because it has 
gotten worse since our conversation. And at best, it will be 
another month before the flood waters full recede, assuming the 
best of conditions.
    Today more than 510,000 acres in this highly productive 
agricultural region is under water. To put that into 
perspective, that is about 789 square miles, an area of more 
than 11 times the size of the District of Columbia. It is 
affecting homes, roads, bridges, churches, schools. There are 
snakes swimming in these facilities right now, and overall 
health and public safety to all of the area residents--I have 
been over there more than once, and what we are experiencing is 
truly catastrophic.
    Hundreds of thousands of acres of prime agriculture and 
timberland will suffer significant damage and go unplanted this 
season. I am talking to farmers almost daily that are in ruins 
there.
    The economic impact on agriculture along will be in the 
hundreds of millions.
    Similar flooding has occurred not once but 10 separate 
times, 10 since EPA in 2008 prohibited the Corps from 
completing the final aspects of a 78-year-old comprehensive 
flood control effort. It has been going on as long as I can 
remember.
    Because of this, residents have lost their homes and 
businesses. Roads and bridges have been destroyed. Wildlife is 
dying. Flying over, we saw all the wildlife on the levee 
because that was the only dry land that they could get to, and 
their habitat lost to contaminated floodwaters.
    We can all agree that decisions made in 2008 have not only 
failed to meet the intent with respect to the environment, 
wildlife, and habitat, but also placed a tremendous burden on 
the lives and properties of thousands in Mississippi.
    I am so grateful that you are giving this the attention 
that you have given us. We have been looking forward to this 
day for a long time. You have been, as I said, very responsive 
to us, and you are certainly a light in a very dark area to us 
right now. And I am grateful, and I appreciate you for that.
    But what comments will you give me that EPA will work in 
good faith with the Corps of Engineers who are providing the 
adequate level of flood protection promised to Mississippians 
literally since 1941?
    Mr. Wheeler. Thank you, Senator. My heart goes out to your 
constituents and the people in Mississippi with the flood that 
has been going on. We are trying to help in the emergency 
response side, and I will talk about that in a second.
    We are working with the Army Corps of Engineers. We are 
reviewing the decision that was made in 2008 to veto the Army 
Corps plan for the Yazoo pumps, trying to determine if in 
particular with the latest flooding if that changes our 
determination in the work that went on in 2008 on reviewing 
that project. We are reviewing more recent data and talking to 
the Army Corps on a near daily basis to try to figure out how 
we can be helpful to you, your constituents, and the Army Corps 
to make sure that the flooding is addressed, and that we do not 
have floods like this going into the future.
    I would be remiss, however--we have incredible emergency 
responders across the agency, at our headquarters, and in all 
of our regions, and they respond to emergencies almost on a 
daily basis. Most of them are very small that most people are 
not aware of, when a train derails, when there is a small spill 
someplace. But I would be remiss if I did not point out that we 
have not had a head of our Emergency Response Office for this 
administration. We are waiting on the Senate confirmation for 
the head of our Emergency Response.
    He was nominated 394 days ago, and that is absurd that we 
have waited so long to have the head of our Emergency Response. 
I really hope he will be confirmed before we hit the next 
hurricane season this year.
    Senator Hyde-Smith. Well, thank you very much for your 
response, and I really look forward to working with you because 
I do think we can come up with some reasonable solutions. But 
thank you for your work.
    Mr. Wheeler. Thank you.
    Senator Murkowski. Thank you, Senator Hyde-Smith.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.

             REPROGRAMMING AND REORGANIZATION REQUIREMENTS

    Mr. Wheeler, before we get into the budget, I want to start 
with some housekeeping. This subcommittee requires our agencies 
to submit reprogrammings and reorganizations for approval. 
Sometimes that process can take time, depending on the scope of 
the proposal, and on time it takes the agency to response to 
our request for information.
    We require that our agencies wait to implement any 
reprogrammings or reorganizations until the subcommittee has 
completed our evaluations.
    Can you commit in this fairly simple yes or no that you and 
your staff will continue to follow these longstanding 
requirements?
    Mr. Wheeler. Yes, I believe we have. We are working on a 
regional reorganization with you, where we first briefed your 
staff last September.
    Senator Udall. And can you commit to continue responding to 
requests from the Minority?
    Mr. Wheeler. Yes. I believe we have responded to all of 
your requests, and we will continue to do so.

                      GREAT LAKES PROGRAM--BUDGET

    Senator Udall. The budget request cuts nearly all funding 
for EPA's geographic programs. These programs have made real 
measurable differences in environmental quality of water 
bodies, such as the Great Lakes. This subcommittee has for 3 
years running rejected the President's proposal to eliminate 
these programs.
    Last week, at a rally in Michigan, the President announced 
he now supports full funding, $300 million, for EPA's Great 
Lakes program. I consider that a remarkable reversal. I have to 
wonder if the President will make more announcements reversing 
his budget request.
    You testified in the House yesterday that an amended budget 
request is in progress for the Great Lakes program; is that 
correct?
    Mr. Wheeler. I believe what I said was that we are talking 
to OMB about what we need to do to convey the President's----
    Senator Udall. Well, the proper--you know the proper thing 
to do is to submit an amended budget request, and we would 
expect you to do that for any of the others that he is planning 
on doing, rather than playing favorites and going to particular 
places that are important in next year's presidential 
elections.
    Mr. Wheeler. We are working with OMB on that. They are the 
ones who submit the actual amended budget request.

                            STAFFING CRISIS

    Senator Udall. I just do not like the idea of playing 
favorites. I think all of these big national programs are 
funded because they are important on a regional basis, and I 
know that your position generally is to say, oh, the States 
should do that. The reality is the States were not doing it. 
Congress stepped forward as a partner, and that is the reason 
we keep funding these.
    So I would like you to keep that in mind when you brief the 
OMB and brief the President about the importance of these 
programs.
    I want to talk a little bit about the staffing crisis. This 
subcommittee is constantly hearing evidence that morale is at 
an all-time low among EPA scientists, engineers, and other 
experts, and the agency staffing levels are dropping because 
despite Congress rejecting proposed budget cuts, the agency is 
not hiring new staff when previous staff depart.
    I see this as an intentional effort to cripple the EPA so 
badly that effects last well past this administration. Since 
the end of the previous administration, EPA has lost 8.5 
percent of its employees. EPA's Research Office alone has lost 
a staggering 14 percent of staff and staffing in the field is 
suffering especially.
    The region that includes my home State of New Mexico has 
lost nearly 12 percent of its staff, and those numbers are from 
January. I do not have more recent data because EPA has refused 
to respond to your request for more recent updates.
    Mr. Wheeler, when you took over as Acting Administrator 
nearly a year ago, you and I discussed the need for EPA to 
maintain and cultivate experienced and qualified staff. You 
said one of your personal priorities was to make sure that 
happened, but here we are a year later. And the numbers show 
that staffing levels are falling deeper into crisis, and that 
we also sit here examining a budget request to cut another 
1,800 staff. Is that really where you are going to take the 
agency, another 1,800 level? That is where you think in terms 
of public health and the environment? That is where the EPA 
should be? Eighteen hundred people lower?
    Mr. Wheeler. I am----
    Senator Udall. You know, that is what your budget says.
    Mr. Wheeler. I am more concerned about making sure we have 
the right experts.
    I hired the first human right--sorry.
    Senator Udall. The question is----
    Mr. Wheeler. Human Resources Director.
    Senator Udall [continuing]. Do you want to be 1,800 people 
lower? That is what your budget, you have put before the 
Congress.
    Mr. Wheeler. If we are focusing on our core missions at the 
agency and protecting public health and the environment, that 
is the number that we believe we can accomplish those goals.
    Senator Udall. Well, I do not think--Mr. Wheeler, with all 
due respect----
    Mr. Wheeler. But my main concern is making sure----
    Senator Udall [continuing]. I do not think you can do that
    Mr. Wheeler [continuing]. That we have the right expertise.
    Senator Udall. Yes. I do not think you can do that with 
1,800 fewer employees, and if you look at the history of the 
EPA over the last couple of years, I mean, we have been 
dropping down dramatically. And there are a number of areas 
where you are not, on public health issues and environmental 
issues, stepping up to the plate and doing the right thing.
    Are you aware, Mr. Wheeler, that Congress has rejected the 
President's proposals to cut EPA's budget and that we have 
provided nearly steady funding for EPA's operating programs?
    Mr. Wheeler. Yes, I am aware.
    Senator Udall. Yes. And I do not think there is any doubt 
that the staff is the key. I mean, these career people--you 
should realize it by now. If you really get into an issue, that 
is where you have to turn to find out what is going on, and I 
just think it is deplorable that we have dropped so far and 
that you are on a trend right now with this budget you 
presented, you are here defending, where you are going to cut 
another 1,800.
    I hope, as we have done in the past--I have not asked a 
question yet. I hope, as in the past on a bipartisan basis, 
that we continue to see the good work that is being done and 
that we do not engage in this cutting just for the sake of 
cutting.
    And I yield back, Madam Chair.

                            STAFFING ISSUES

    Senator Murkowski. Administrator Wheeler, you looked like 
you were going to have one more comment there, but if you do 
not, I am going to go to Mr. Van Hollen.
    Mr. Wheeler. Just a quick comment that the downward trend 
did start before this administration, but the biggest issue we 
have is 40 percent of our workforce is eligible to retire over 
the next 5 years.
    Last year, we hired 30 new people to work on TSCA, but we 
also lost 30 people in the same year that were working on TSCA. 
So we have--the challenge that we have is the high number of, 
compared to other agencies and departments, people who are 
eligible to retire and are retiring and trying to bring on the 
people to replace them. The hiring process is a very long 
process to bring on new people in the Federal Government. It 
takes months to bring on a qualified scientist, and as I said, 
we brought on 30 new people last year to work on TSCA. We 
thought we were going to have enough people to work on it, and 
then at the same time, we had 30 people leave the agency.
    So we have a challenge, and I am working very hard to 
address that challenge.
    Thank you.
    Senator Murkowski. Let us go to Senator Van Hollen, please.
    Senator Van Hollen. Thank you, Madam Chairman.
    Welcome, both of you.
    Administrator Wheeler, when you were up for your nomination 
hearing before the Environmental and Public Works Committee, 
you said for the record that ``The EPA is fully committed to 
the Chesapeake Bay program.'' You have not changed your 
position, have you?
    Mr. Wheeler. No, Senator.
    Senator Van Hollen. You remain fully committed to that 
program and think it is a good program, right?
    Mr. Wheeler. Yes, sir.

                             CLIMATE CHANGE

    Senator Van Hollen. I appreciate that because, as you know, 
in the President's budget, he slashes the program from $73 
million a year to $7.3 million.
    Senator Udall mentioned that when the President was out at 
the Great Lakes, he on the spot restored the $300 million cut.
    The other day, after Secretary DeVos defended the cut to 
Special Olympics, the President reversed that.
    It does indicate that the whole process on the executive 
side of the ledger is a bit of a sham here, but I am pleased 
that on a bipartisan basis, this subcommittee has continued to 
fund these important projects.
    You indicated that the mission of the EPA was to protect 
the public health and the environment, and I assume you would 
agree that we should do that using the best science and the 
best evidence; is that right?
    Mr. Wheeler. Yes, Senator.

                CLIMATE CHANGE WEBSITE--INDICATORS PAGE

    Senator Van Hollen. So my question is when it comes to 
climate change--and we just heard Senator Hyde-Smith talk about 
the catastrophic flooding in Mississippi. There is no doubt 
that we see more frequent and more intense extreme weather 
events.
    Why you continue--the EPA continues to have taken down the 
EPA--the portion of the EPA website dealing with climate 
change. When you go to epa.climate these days, you got a little 
headline saying ``We want to help you find what you are looking 
for,'' and it goes on. It disappeared, the previous climate 
change portion of the website.
    Mr. Wheeler. It is my understanding that everything--and I 
have asked this question of our career technical people 
multiple times--that everything that was ever on the website on 
climate change is still available on the website.
    Senator Van Hollen. So what you did----
    Mr. Wheeler. It is not highlighted to the same extent that 
President Obama's EPA highlighted it.
    Senator Van Hollen. So if you wanted----
    Mr. Wheeler. But it is still on the website.
    Senator Van Hollen. Mr. Administrator, if you want to be 
taken seriously as an agency that believes in science, you 
would not disappear the climate change website. Yes, you have 
archived what was there before the Trump administration.
    My understanding is when you look at your climate 
indicators page, you have not been updating the graphs with the 
newest information. Will you commit today that you will do 
that, the agency?
    Mr. Wheeler. I will have to look into that. Yes.
    Senator Van Hollen. Would you be surprised to learn that 
the climate indicators page does not allow the graphs to be 
updated with the most recent information?
    Mr. Wheeler. I would have to look into that.

              BERNARD GOLDSTEIN'S WASHINGTON POST ARTICLE

    Senator Van Hollen. Well, I would hope--I would hope that--
the credibility of the agency seems to me is on the line on 
these issues. People can have their own views, but when you 
have the scientific community very clear on this, the evidence 
is overwhelming.
    Which leads me to another question because I am worried 
about the fact that science is being displaced by sort of 
political science and political pressure in a number of places 
around the agency.
    There is an article. I do not know if you saw it this 
morning. It headline is ``If I Worked at the EPA, I Would 
Resign.'' It is a column in the Washington Post by Bernard 
Goldstein.
    Bernard Goldstein was the chair of the Clean Air Scientific 
Advisory Board in the Reagan administration. He was then 
appointed by President Reagan to be the head of EPA's Office of 
Research and Development, and there are seven members of the 
Scientific Advisory Board. And he points out that they rely a 
lot on the scientific information provided by subcommittees to 
the board.
    And then he writes that is how it is supposed to work. In 
other words, they are supposed to get input from the 
subcommittee experts. But last October, Wheeler suddenly and 
highhandedly terminated the subcommittees working to develop 
recommendations for their particulate standards as well as the 
standard for ozone pollution, which is what this advisory board 
is going to review next. And he says for the first time, this 
advisory committee will lack a single epidemiologist.
    So my question is why. Why eliminate the panel of experts? 
It seems to me it looks like another step to eliminate outside 
independent expert opinion.
    Mr. Wheeler. Absolutely not, Senator.
    First of all, the Clean Air Act 1990 amendments requires us 
to review the NAAQS every 5 years. We took a hard look at what 
was causing the delay because the agency has never met the 5-
year timeframe for ozone or particulate matter (PM).
    Part of the problem was the subcommittees, which are not 
required under the statute, took a lot of time to go back and 
forth between the subcommittee and the full Clean Air 
Scientific Advisory Committee (CASAC).
    So we streamlined the CASAC review so we will get both of 
those reviews for ozone and done within the 5 years. They will 
be done by the end of next year, which is the requirement under 
statute, and as I sat down with----
    Senator Van Hollen. If I could just ask--if I could just 
ask----
    Mr. Wheeler. Certainly.

                          CASAC 5-YEAR REVIEW

    Senator Van Hollen. I understand. Why not say to the 
subcommittee experts, ``Here is your deadline. If you do not 
get us the information in time, then we are not going to be 
able to consider it''----
    Mr. Wheeler. Previous administrations have done that.
    Senator Van Hollen. Right. I am asking why this 
administration wiped it out.
    Mr. Wheeler. They were never able to meet the 5-year 
deadline.
    I have assured the head of CASAC that if they need outside 
technical assistance, outside scientific review, they are still 
allowed to reach out to epidemiologists and get additional 
input. It is that formal subcommittee review process that took 
literally months and years at----
    Senator Van Hollen. So are you wiping out all the 
subcommittees?
    Mr. Wheeler. Yes, for the ozone and PM, and then we will 
see how that goes as far as the NAAQS.
    Senator Van Hollen. No, but you have not wiped out the 
other ones?
    Mr. Wheeler. Those subcommittees are just for the NAAQS 
review process under CASAC for the NAAQS standards. As soon as 
the 5-year review period is over, we start the next 5-year 
review. The agency has never met the 5-year deadline that is 
required under the Clean Air Act.
    We tried to reform the process in order to meet the 
deadline given to us by Congress.
    Senator Van Hollen. I think the concern is this combined 
with another policy you have where people who are providing 
contracts to the EPA scientists, you are not allowing them to 
participate, but you are allowing other sort of industry 
lobbyists to participate.
    I think I would like to continue with this conversation.
    Mr. Wheeler. I would be happy to.
    Senator Van Hollen. The credibility of the agency clearly 
is being hurt here when you disappear the climate page, when it 
appears that the important subcommittees of scientists are 
being eliminated.
    And just to end with a point that Senator Udall made, as I 
understand it, the Assistant Administrator for Research and 
Development position, which is what this gentleman held during 
the Reagan administration, is unfilled, is that correct?
    Mr. Wheeler. It is. We have had a hard time filling 
positions because people look at how long the process takes, 
and they have told us no.
    When you have the head of our Superfund and Emergency 
Response waiting 394 days for confirmation, we literally have 
had people say, ``We do not want to go through the Senate 
confirmation process.'' This confirmation process is broken, 
and I really hope it can be fixed on a bipartisan basis.
    Senator Van Hollen. Well, there is the----
    Mr. Wheeler. We are losing qualified people.

                         POLITICAL CONFIRMATION

    Senator Van Hollen [continuing]. Confirmation part of it. 
There is the confirmation part of it. There is also the reality 
that lots of people have not been appointed. We cannot go 
through a confirmation process----
    Mr. Wheeler. We have had people to turn down because they 
look at how long the process is.
    Senator Van Hollen. The suggestion in this article from the 
person who held this position in the past is the reason 
scientists are not applying for the job is because they think 
that their work will be subject to political oversight and not 
scientific peer review.
    Mr. Wheeler. I have never met him, and I do not know how he 
has formed these opinions about me. We have never had any 
conversations. So I am not sure why he believes that.
    Senator Van Hollen. Thank you.

                       STATE IMPLEMENTATION PLAN

    Senator Murkowski. Thank you, Senator.
    I want to talk about some of the programs that have made a 
difference.
    I am listening to the comments from my colleague here, and 
while I respect the line of inquiry, what is on the website is 
not what people in Alaska are talking about. They say, ``What 
are you doing to fix PM<INF>2.5</INF>? What are you doing on 
our fish grinding issue? What are you doing on these things 
that are making a difference?''
    I want to talk you about some of them because there is 
frustration here with EPA. We have that in Alaska. We have that 
throughout all of our States.
    But to know that we are making a little bit of headway 
there is important. I mentioned in my opening that when it 
comes to the PM<INF>2.5</INF> issue, and how Fairbanks is 
located in a geographically constrained area with really no 
viable options for folks to keep their homes warm in the 
wintertime so they turn to wood burning, we have got some real 
particulate issues.
    The Borough has been reclassified for non-attainment. The 
State is required to formulate and submit this air quality plan 
to demonstrate attainment by December 31. We have been 
struggling with this for years.
    That is why I mentioned the Targeted Airshed Grants. That 
has been the one thing that has been somewhat helpful to the 
Fairbanks North Star Borough doing these woodstove change-outs.
    I am working with Senator Carper now on our bill, the Wood 
Heaters Emission Reduction Act. That is another little bright 
glimmer of hope.
    Right now EPA has been providing some technical assistance 
to the Borough in formulating this plan that is due at the end 
of the year. People are very nervous. They are very anxious 
because there are very real on-the-ground repercussions. How is 
EPA taking into account the unique situation that Fairbanks 
faces with its geography, an area with extremely low 
temperatures in the winter, and lack of access to cleaner fuels 
like natural gas? How are you working with the Borough to 
address a plan by year-end?
    Mr. Wheeler. Fairbanks, as you know, has very unique 
issues, problems with the air quality. A lot of it is 
geographic, the way the city sits, and of course, the wood 
burning heat sources as well.
    We are working very closely with not only the City of 
Fairbanks, but also the State to try to make sure that they can 
submit a State Implementation Plan before the end of the year.
    As you know, we have been sued. The EPA has been sued over 
this. If we cannot get the State Implementation Plan by the end 
of the year, we will be forced to work on a Federal 
Implementation Plan, which is something we do not want to do.
    Senator Murkowski. We do not want it either.
    Mr. Wheeler. Yes. The Obama administration issued more 
Federal Implementation Plans than the previous four 
administrations combined. Since March of 2017, we have turned 
one FIP into a SIP on a monthly basis, working with the States. 
So we have a very good track record of working with States and 
local communities to avoid FIPs and to change FIPs back into 
SIPs. The State Implementation Plan is where we want to be.
    I know my Region 10 regional administrator has been up in 
Alaska multiple times with the City of Fairbanks and the State 
trying to provide additional tools, additional assistance, 
technical assistance as well. We will continue to do that 
because our goal is to make sure that there is a SIP in place 
before the end of the year.

                       SMALL REMOTE INCINERATORS

    Senator Murkowski. Well, that is definitely what the 
Borough is looking for. We need your help there, and again, the 
sooner the better. So we look forward to some of these 
important conversations moving forward.
    One of the things that we have dealt with in this 
Committee, in this subcommittee, is the issue of small remote 
incinerators up North in very remote areas that are 
inaccessible by road. They are critical for solid waste 
disposal. The options for using solid waste disposal are 
substantially more difficult, really unfeasible up North in 
some of these areas.
    Year after year, we have included language within our 
appropriations subcommittee bill that gives us just yet a 
little bit more time. I have gone to my colleagues on the 
subcommittee on the House and the Senate side, and I have 
promised them, ``EPA is working with us to resolve this. It is 
going to be resolved this year, and we will not need to worry 
about this.''
    I cannot keep going back to my colleagues and saying it is 
going to be resolved, it is going to be resolved. I really need 
to know that we will have an administrative solution on these 
very few small remote incinerators.
    Can you give me some assurance that we are going to resolve 
this, this year?
    Mr. Wheeler. We are certainly trying. This is another area 
where we have to work with the State for a State Implementation 
Plan.
    Senator Murkowski. Right.
    Mr. Wheeler. We are trying to make sure that they have the 
data that they need to submit a plan to us.
    Senator Murkowski. Well, I know that Senator Udall and 
Congresswoman McCollum will be really pleased when I come to 
them and say, ``We do not need this anymore because we have 
resolved that.''
    So we will be working with you and the State on that.
    Mr. Wheeler. My ultimate goal is to make sure that all four 
of you are very pleased.
    Senator Murkowski. Well, that sounds like a good goal.
    Let me turn to Senator Udall.

                   ENFORCEMENT OF ENVIRONMENTAL LAWS

    Senator Udall. I just want a brief comment about the 
staffing issue that you talked about.
    First of all, labor economists have been predicting baby-
boomer retirement effects for decades. This is not news. Your 
agency has simply failed to plan and prepare and deal with the 
staffing deficit.
    My opinion is you have known this was coming. The people in 
the Department have known it is coming. You promised us you 
were going to be on top of it, and you failed on that front.
    One of the fundamental responsibilities of the EPA is to 
enforce our Nation's environmental laws, but this 
administration is literally taking the cops off the beat. 
Administrative and civil penalties in fiscal year 2018 declined 
to the lowest level since EPA established a dedicated 
enforcement office 25 years ago.
    EPA also initiated roughly 1,800 civil enforcement cases in 
fiscal year 2018, the lowest level in a decade.
    I know the administration's party-line response is that it 
is focusing on compliance ahead of problems rather than after-
the-fact enforcement, but the numbers do not tell that story.
    EPA's own data indicates that the agency conducted 10,600 
inspections in 2018, which is the lowest number in the last 
decade and less than half of the inspections conducted in the 
peak year of 2010.
    With fewer inspections, there are fewer opportunities to 
identify facilities that are out of compliance. It really is 
not more complicated than that, and this focus on compliance, 
the budget request you bring us today asks for a $12 million 
cut to compliance. That is a full 12 percent cut.
    This administration's money is not where its mouth is, and, 
Mr. Wheeler, the staffing levels for the headquarters 
enforcement office has plummeted by 19 percent. That is more 
than double the loss of the rest of the agency, and this 
subcommittee has not cut one dollar from EPA enforcement.
    It is clear to me that this administration is turning its 
back on enforcing our environmental laws, and while that is 
friendlier to industry, it is a five-alarm fire for air quality 
and our water quality.
    Mr. Wheeler, if the administration's focus is on compliance 
and not enforcement, what are you specific goals and metrics to 
show that this approach will result in cleaner air and water, 
specific metrics and goals?
    Mr. Wheeler. Absolutely. First of all, when a State has 
primacy on the environmental programs, they are the ones that 
generally do the inspections, which is why the inspection 
numbers have been doing down since 2010. But we have----

                                METRICS

    Senator Udall. But also, mind you, the budgets that have 
come up here have savaged money to the States. The budgets you 
have been presenting year after year, this administration, and 
your partners are the straights. You have delegated, but then 
you do not want to give them money to do the job. I do not know 
how you can get in this situation where you say, ``Oh, we are 
going to let the States do it,'' but then when they are vital 
partners, it is very important for you to give them the money 
to do that.
    Focus in on the metrics.
    Mr. Wheeler. Sure.
    Senator Udall. Show me that what you are doing is providing 
cleaner air and water to the American public.
    Mr. Wheeler. The past metrics have focused on targeting 
industry sectors as a sector. What we are now targeting is non-
attainment areas to get them to attainment. We are targeting 
impaired waters to get them to be safe drinking water. So we 
are focused on the environmental outcome.
    The pounds of pollution reduced because of our enforcement 
actions went up last year dramatically.
    We have stopped over, for example, 1 million after-market 
defeat devices from being used in the cars here in the United 
States, which helps us on the non-attainment side because of 
the auto emissions contributing to non-attainment.
    In 2019, we have already stopped approximately 2,200 
illegal vehicles and engines at the border. So what we are 
doing is trying to focus on areas where there is not 
attainment, to get those areas to attainment, using our 
enforcement tools.
    I would point out that last year, the number of criminal 
cases went up for the first time since 2011. It has been on a 
downward trend, and we are reversing that trend.
    So, yes, we are focusing on compliance and audits at the 
beginning of the process, but we are making sure that if people 
are violating the law, we are taking actions, including 
criminal action against them, so at both ends of the 
enforcement spectrum. But in the middle, we are working with 
the States to provide them more tools so that they do 
inspections.
    When we do inspections--and, actually, we just started this 
last year, and Region 8 is a pilot. Our inspectors are going 
out inspecting. Now we do the inspection, and then we provide a 
written report back to the facility afterwards. That has 
actually cut down in some of the inspection times of our people 
because they are spending extra days working on the reports to 
give the facility so that they reach compliance faster.
    Senator Udall. But, mind you, you have also sent a budget 
up here to cut your compliance 12 percent.
    Thank you, Madam Chair.
    Senator Murkowski. Thank you, Senator.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Administrator, it is good to see you here.
    In September of 2018, really in your first few weeks on the 
job, you dealt with a big problem that has been a problem in 
our State, a big enough problem that it had been on the 
Superfund Priority List for 29 years. Hard to imagine anything 
that is really a priority that is on the Priority List for 29 
years.
    Mr. Wheeler. Absolutely.

                          WEST LAKES LANDFILL

    Senator Blunt. And you and your predecessor worked from day 
one when you were the Deputy Administrator and now the 
Administrator to come to a conclusion and did. The local 
feedback from West Lakes Landfill, that area has been very 
positive. I think you have hit the right spot here to get this 
done.
    This morning, though, would you give me an update on what 
is going on there now and what are the next steps we need to 
take to get to the end of your planned way to deal with that?
    Mr. Wheeler. We have been working on the ground. We have 
already started the remediation. We are continuing to keep the 
local citizen groups updated on our progress, and at this 
point, we are still on track of getting the site cleaned up and 
completed.
    Senator Blunt. Is this a process of bidding someone to 
remove the things that are going to be removed or to----
    Mr. Wheeler. I believe so at this point. I can give you a 
better update afterwards, but I believe so.
    Senator Blunt. If you want to, take that for the record----
    Mr. Wheeler. Sure.

    [The information follows:]
                       west lake landfill update
  --On February 6, 2019, EPA finalized an enforceable agreement with 
        the potentially responsible parties (PRPs) to perform an 
        investigation of the groundwater beneath and around the site.
  --The EPA is working to reach a legal agreement with the PRPs to 
        perform remedial design for the operable unit that contains 
        radiologically impacted materials.
  --The Agency is engaging the PRPs regarding their implementation of 
        the remedial action after the design is complete.
  --As a site on the Administrator's Emphasis List, the EPA met the 
        commitments to citizens by releasing a record of decision 
        amendment by September 2018. EPA also made improvements to the 
        proposed plan to reduce exposure to the community and cleanup 
        workers, shorten construction time, and allow the flexibility 
        to more efficiently remove contamination from the landfill.

                    SMALL REFINERY EXEMPTION PROGRAM

    Senator Blunt [continuing]. And then I would like a sense 
of where you are now and maybe your projected calendar, how you 
are going to deal with those issues.
    Let me talk about one more thing while you are here. Under 
the Renewable Fuel Standard (RFS) volume obligations, EPA 
grants retroactively waivers. I think we have talked about this 
when you were confirmed.
    When you retroactively grant waivers and do not reallocate 
the volume that those waivers would have represented 
effectively, you decided on your own to reduce the volume of 
ethanol that is out there.
    I think whenever we had your confirmation hearing, you said 
you are going to look at how that exemption process works and 
make sure that the exemptions are warranted. I think you also 
were going to outline the process for review and really look 
seriously at what happens when you give a waiver and there is 
no reallocation of that amount.
    I think you have got 39 pending waivers, and I would just 
like you to talk a little bit about how you are going to look 
at those waiver issues, and if there is a way you can do this 
so that the legislated volume or the volume actually that you 
have determined should be the right volume actually is either 
the volume that year or added on to the volume for the next 
year.
    Mr. Wheeler. Well, Senator, the Small Refinery Exemption 
Program, which is our process of providing waivers to the small 
refineries, which decreases the gallons on the RFS program, is 
set up by statute.
    Previous administrations did not implement the program, and 
EPA was sued three times and lost three times. So we now have 
three court orders and how to run the program in addition to 
the statute as well as appropriations language at one point.
    But once we set the Renewable Volume Obligation (RVO) for 
the year, for the following year----
    Senator Blunt. Right.
    Mr. Wheeler [continuing]. Which we have done on time the 
last 2 years, first time that has ever happened----
    Senator Blunt. Right.
    Mr. Wheeler [continuing]. After that, when we receive the 
small refinery waivers and those come in after the RVOs are 
set, we do not have a process to go back to readjust the RVO.
    If we were to try to do that, that would probably send more 
small refiners into financial hardship based on the number of 
gallons that would then be spread out over fewer refineries.
    We have taken the move to be more transparent with small 
refineries.
    Senator Blunt. But when you exempt the small refiners, do 
not you spread out the gallons over the larger refiners?
    Mr. Wheeler. No, we do not. I believe that is the crux of 
the issue is we are not redistributing the small refinery 
gallons back into the marketplace.
    Senator Blunt. Into the system.
    Mr. Wheeler. Into the system, right.
    We do not have a mechanism to do that because we have 
already set the RVO for the compliance year, and that would 
throw all of the----
    Senator Blunt. You need to give yourself a mechanism, or do 
we need to give you one? Or is it just unreasonable to have 
that mechanism?
    Mr. Wheeler. I think we would need to be given that 
mechanism, but I also think it would be very hard to try to 
implement something like that after the fact.
    On the 39 that you referred to, we have not actually 
received those yet from the Department of Energy. The way the 
process works is that they apply to the Department of Energy. 
The Department of Energy reviews the small refinery exemption 
applications. They have given us a list of the small refineries 
that have applied this year, but they have not given us their 
underlying rationale and recommendations yet for those 
refineries.
    So, as soon as we receive those, we then process them and 
either move forward to either grant or deny the small refinery.
    Senator Blunt. And when you do that, by the time you get to 
that, it is retroactive because the year is basically already 
behind us; is that right?
    Mr. Wheeler. Yes, that is correct.
    Senator Blunt. All right. You can I can talk about this 
more, and we will. Again, thank you for your leadership on West 
Lakes, and thank you for the last 2 years of getting that RFS 
number out on time.
    Mr. Wheeler. Thank you.
    Senator Blunt. Thank you, Chairman.
    Senator Murkowski. Thank you, Senator.
    Senator Merkley.

                    CLIMATE CHANGE PROGRAMS--BUDGETS

    Senator Merkley. Thank you very much, Madam Chair, and 
thank you, Administrator Wheeler, for coming before the 
subcommittee.
    When you were being considered for nomination, I asked you 
on a scale of 1 to 10, with 10 being very concerned, how 
concerned were you about climate change, and you responded an 8 
or 9, which means it is a pretty significant concern.
    So did you increase or decrease funding for climate 
programs in the 2020 budget as a result of your high level of 
concern about climate?
    Mr. Wheeler. Which climate programs are you referring to? 
Because we are still moving forward on our two big climate 
regulations. We should finalize those this summer, the----
    Senator Merkley. Did you increase financing or decrease 
financing for the Global Change Research Program?
    Mr. Wheeler. That has been eliminated, but we believe we 
can address those through our regulatory programs and other 
programs at the agency.
    Senator Merkley. And did you increase or decrease funding 
for the Atmospheric Protection Program?
    Mr. Wheeler. That has been decreased. Yes.
    Senator Merkley. Was that the $365 million decrease for air 
quality programs, or also you decreased other programs as well?
    Mr. Wheeler. I am sorry. I will have to get back to you on 
that specifically.

    [The information follows:]
                    climate change programs--budgets
    Our agency will provide a response as part of the ``Additional 
Committee Questions'' at the end of the hearing.

    Senator Merkley. Okay. So if you have a high level of 
concern, how come you are cutting the funding for key climate 
programs?
    Mr. Wheeler. Because we are moving forward on our two 
regulations, our ACE regulation would reduce CO2 from power 
plants by 34 percent, and our CAFE standard, which we also plan 
to finalize later this spring or early summer, will reduce CO2 
emissions on par with what the Obama administration----

                          LEAD DUST REGULATION

    Senator Merkley. I think the world is well aware that that 
effort will increase carbon pollution.
    But let us turn to lead. You are probably aware that lead 
is one of the major health threats for young children in our 
country, nearly half a million U.S. children ages 1 through 5 
have blood levels at or above the 5-microgram level, which is 
where the CDC recommends public health actions be taken.
    I think you probably understand that there is no safe blood 
level, but that this is a very serious impact on the developing 
brains of our children across Americas, and yet your 2020 
proposed budget slashes EPA's lead program. Why?
    Mr. Wheeler. It is the lead paint, and we are working 
closely with HUD. We are moving forward with our lead dust 
regulation. That should be finalized by June. We are also 
proposing our lead and copper pipe rule, which is the first 
time that regulation has been modernized in over 20 years.
    So we are moving forward very aggressively on lead, but 
that particular lead program that you referred to, we found 
that within the administration, it was duplicative of what HUD 
was doing. So we are deferring to HUD on the lead paint, but we 
are moving forward on the regulations for lead dust, which 
again will be out in June. And we will be proposing the lead 
and copper rule this summer, which will go a long ways to 
reducing lead exposure to families, and we are looking at 
mandatory testing in both schools and daycare centers.

                        LEAD TESTING IN SCHOOLS

    Senator Merkley. Well, that is funny because while you are 
talking about some future regulation, you are cutting the 
program for State and Tribal assistance grants for lead testing 
in schools, which means less lead is detected, less action is 
taken, and so the net impact is that more children get 
poisoned. And that is really unfortunate under your leadership 
that more children are going to be poisoned.
    Mr. Wheeler. We also requested $50 million for Healthy 
Schools program, which will be working with schools, not just 
public schools and private schools, but also Tribal schools to 
address lead and other contaminants located in the schools.

          CLEAN WATER AND DRINKING WATER STATE REVOLVING FUNDS

    Senator Merkley. The Clean Water and Drinking Water State 
Revolving Funds are something very valuable to particularly my 
rural communities. I go to every county every year. I hold a 
public town hall. I meet with the commissioners and any other 
electeds beforehand--school boards, city commissioners, and so 
forth. Almost always what comes up is the challenge of clean 
water supply and wastewater treatment. It is just a critical 
piece of infrastructure.
    Under your proposed budget, States would lose 31 percent of 
their potential funding. Under the Clean Water State Revolving 
Fund and the Drinking Water State Revolving Fund, I know that 
my rural communities are desperate for more assistance because 
it is so expensive for a small town to do a treatment center. 
You just cannot spread among enough residents in those smaller 
towns.
    So this might have a huge impact on infrastructure in rural 
America. Why would you want to do that to rural America?
    Mr. Wheeler. The amount they are asking for this year is at 
a reduction, but you have to remember that the overall funds 
currently available in the overall SRFs across the whole 
country is $80 billion.
    We also asked for more funding for AWIA this year--I am 
sorry--for WIFIA this year, and AWIA, which passed by Congress 
last fall, did not receive any money this year, but we are 
requesting $83 million for that. There is a number of different 
small grant programs in the new AWIA legislation.
    We know we have been successful in the SRFs, but in order 
to reach more smaller communities, we think some of the funding 
mechanisms and the AWIA legislation might be very helpful 
there. So that is why we are asking for money for that 
legislation--or for that new statute that was passed last fall. 
So we are asking for $83 million for AWIA. We asked for an 
increase from over our budget request last year for WIFIA, and 
with the total amount of money available through the SRFs, we 
are looking at $80 billion because every time we put money out 
through the SRF, it gets repaid . We are also earning interest 
on it. So that bank of money has increased substantially over 
the years.

              WATER INFRASTRUCTURE FINANCE INNOVATION ACT

    Senator Merkley. Well, I am glad you mentioned WIFIA, Water 
Infrastructure Finance Innovation Act, because it is an act 
that I wrote, and I am pleased it is there. But, unfortunately, 
it is not working for small communities because the fees, the 
administrative fees that are being charged by the 
administration, are too high.
    I would like to encourage you to take a look and advocate 
within administration how to make that program work for small 
communities.
    Mr. Wheeler. We are trying that. We have looked at trying 
to get a few small communities to band together for a loan. We 
are looking at that in Indiana, for example, where there are 
several small communities, but we think the new AWIA 
legislation might actually be better for small communities. So 
that is why we requested money for AWIA.
    Senator Merkley. Thank you.
    Senator Murkowski. Thank you, Senator Merkley, and thank 
you for clarifying that because I think we recognize certainly 
in my State that the opportunities with AWIA are considerable 
for the smaller communities.
    Let us go to Senator Daines.

                    SILVER BOW CREEK SUPERFUND SITE

    Senator Daines. Thank you, Chairman Murkowski.
    Administrator Wheeler, I want to commend you for your 
leadership of the agency and a renewed focus on achieving 
results for the American people.
    One area where Montanans have really seen an increased 
focus is on our Superfund sites. I am pleased you have ranked 
our Silver Bow and Anaconda sites with the highest priority for 
cleanup and restoring to reuse and our Lobby asbestos site on 
the EPA's list with greatest potential of redevelopment. That 
is direction from the top that Montanans have long sought for. 
Now we need to make sure the actions are executed effectively 
for Montana.
    One aspect of the remedy involved for restoration of the 
Silver Bow Creek site is restoring Silver Bow Creek to a 
natural stream. I have heard from EPA and ARCO that there may 
be some limitations to restoring a full functioning natural 
stream in this area.
    My question is, what do we need to do in Congress to remedy 
these obstacles?
    Mr. Wheeler. Well, first of all, Senator, thank you for 
showing me both of those sites last summer. I enjoyed that 
visit to Montana, and it was really educational to see that 
firsthand.
    Senator Daines. And you were the first EPA Administrator to 
ever visit both of those sites.
    Mr. Wheeler. I believe in at least over 20 years.
    Senator Daines. Thank you. Thanks for coming.
    Mr. Wheeler. Yes. I was very happy to do that, and it was 
very educational for me.
    I just actually had a briefing on this last week. I was in 
our Denver office. I had a teleconference call with our Montana 
field office, our Denver people who are working on these two 
sites, and our D.C. people working on these two sites for an 
update.
    I have to be careful because some of this has not been 
announced yet. We are working with ARCO and then the parties. 
We have to go back to the court for this as well, but we are 
trying to make sure that in the future, if a water source is 
identified for the creek that that would be a possibility.
    Some of that, though, is not within the remediation side of 
a Superfund site. It might be more on the natural resource 
damages side but not the remediation side.
    So we are constrainted in some aspects of what we can do, 
but we have communicated to the potentially responsible parties 
(PRPs) the importance of that for the community. We are trying 
to make sure that our Superfund remediation effort there will 
allow the restoration of that creek in the future and the 
remediation techniques will not impede that from happening.
    Senator Daines. Well, thank you. I can tell by just you are 
responding that you are actively engaged on this issue.
    Mr. Wheeler. Yes, I am, sir.

                    ANACONDA SMELTER SUPERFUND SITE

    Senator Daines. I can tell you are not looking at your 
notes. You are talking about it from firsthand experience, and 
I appreciate that greatly for your engagement.
    I know the folks in the community there cannot wait to see 
this come to some closure.
    Regarding the Anaconda Superfund site, it is my 
understanding there has been some progress made on the consent 
decree----
    Mr. Wheeler. Yes.
    Senator Daines [continuing]. For the Anaconda Smelter 
Superfund site, but I have heard there may be a speedbump. Can 
you assure me that the EPA is staying form to ensure the site 
will be secure into perpetuity?
    Mr. Wheeler. Yes. I am not aware of the speedbump, and I 
would be happy to talk to you and your staff about that 
afterwards.
    It is my understanding we are still on plan to execute the 
consent decree by this December.
    Senator Daines. Okay. Thank you.
    Mr. Wheeler. That is what I was told the last time I----
    Senator Daines. Yes. It is the in perpetuity piece that we 
want to make sure.
    Mr. Wheeler. Sure.

                   SIGNIFICANT NEW USE RULE--ASBESTOS

    Senator Daines. I know you are engaged. Thank you for 
working with us closely and particularly for the EPA's active 
presence on the ground with the community, restoring that trust 
and that dialogue.
    I want to shift gears and talk about asbestos for a moment. 
As you know, due to asbestos contamination, mining vermiculate 
in northwest Montana, there has been a terrible legacy of 
asbestos-related pulmonary problems for my constituents 
throughout that area. We are talking about Libby primarily. In 
fact, there were 2,000 individuals in northwest Montana that 
have been diagnosed with an asbestos-related pulmonary disease 
at Libby's CARD Clinic.
    In fact, furthermore, just last summer, a preschool in 
Missoula was found to have an unacceptably high level of 
asbestos exposure, and children had to be immediately 
relocated. Clearly, our Country has known for a while that 
asbestos presence can be dangerous to human health.
    I believe it is very important as a chemical engineer that 
we base decisions on sound science. You said that your goal 
remains to have it complete, this EPA's risk evaluation--and 
Senator Tester brought this up earlier--to have this completed 
by December.
    My communities in Montana are eager, eager for progress. We 
have known for a while the dangers of asbestos, and we want to 
protect others from the tragedies that we have seen in Montana.
    So I want to thank you for going a step beyond what is 
required under TSCA with a Significant New Use Rule regarding 
asbestos. My question is, why did the EPA list specific uses of 
asbestos instead of banning all new uses?
    Mr. Wheeler. We are about to go final on the Significant 
New Use Rule, and we are looking at that. We took comment, and 
that is part of our deliberation at this point.
    There was a lot of misinformation in the press last year 
when we announced the Significant New Use. The TSCA process 
takes several years from start to finish. We wanted to make 
sure that no new--I have to be careful not to prejudge. We were 
concerned that there could be importation of asbestos products 
into our country. We are seeing asbestos showing up in products 
from Russia and China. So the only way to ensure that the EPA 
is aware of that ahead of time is the Significant New Use Rule, 
which would allow us before an importer could import a new 
product containing asbestos that they would have to go to us 
for permission. We could then deny it.
    There was no mechanism to do that prior to our Significant 
New Use Rule. So that is what we are trying to do to close that 
loophole.
    Senator Daines. Right.
    Mr. Wheeler. I was accused last year in the press of trying 
to open up the markets to all kinds of asbestos products, and 
that is the furthest thing from the case.
    Senator Daines. Thank you for staying very engaged and 
active on this issue as well. I want to work with you. I want 
to work on legislation to do just that. I think it is more 
predictable for all parties involved. I want to see an outcome 
that protects the people of this country and in Montana, and my 
goal is to help prevent these future tragedies like we have 
seen in places like Libby.
    Mr. Wheeler. When I was a career staffer at EPA in the 
early 1990s in the toxics office, the EPA program had a setback 
on the asbestos regulation. Part of that was overturned by the 
court, and the agency has not tried to address asbestos since 
then.
    With the new TSCA, I think we can address these issues. The 
Significant New Use Rule is supposed to be the stop-gap measure 
until we finish the risk assessment and the regulation of 
asbestos, but we are moving forward for the first time in over 
25 years to try to address the asbestos.
    Senator Daines. Okay. Thank you, Administrator.

                         OFFSHORE FISH GRINDING

    Senator Murkowski. Thank you, Senator Daines.
    Administrator Wheeler, I have a couple more quick ones, and 
I am going to run over to Homeland Security approps hearing and 
ask a couple questions over there before we gavel out. Senator 
Blunt is going to be here with Senator Udall as we wrap up.
    We have made some headway working with you on the offshore 
fish grinding. Thank you for helping us with that effort, but 
we are still dealing with the onshore processing issue, even 
with the best available technology. One hundred percent 
compliance with the permit requirements is not achievable 
because of the nature of the seafood waste. This results in 
extensive noncompliance reporting under the EPA permit, serving 
as a constant threat of enforcement risk and loss.
    I would ask once again for your commitment to work with me 
to ensure that our onshore fish processors are not going to 
face fines for simply doing everything that they can to comply 
with the regulation. I do not know if you have any updates for 
me, but that is something that we have to get resolved.
    Mr. Wheeler. We are supposed to have our draft general 
permit for public review published early this month for public 
comment.
    Senator Murkowski. Okay. This month, April?
    Mr. Wheeler. Yes, April.
    Senator Murkowski. So sometime in the next week or so?
    Mr. Wheeler. Yes. I have planned for early April. Yes, 
Senator.

                           DIESEL GENERATORS

    Senator Murkowski. Okay. We will look forward to that.
    Another perennial issue relates to diesel generators in our 
remote communities and the EPA regulation that requires any 
diesel generator purchased after model year 2014 to have a 
diesel particulate filter installed, even if it is used as a 
primary power generator.
    So you know this issue very well in terms of the high cost 
of compliance to many of our small remote communities, and your 
regulatory review panel set up as a result of Executive Order 
13777. We have asked the EPA to reexamine the reg related to 
these diesel engines.
    Do you have a current status on that? Please do anything 
you can to demonstrate your commitment to work with us with 
regard to our micro grids scattered all throughout the State.
    Mr. Wheeler. I am told that we should be issuing a Notice 
of Proposed Rulemaking and direct Final Rule in June of this 
year.
    Senator Murkowski. Looking forward to it.
    Administrator, I really appreciate your in-depth responses 
to some of these questions, and getting into real performance 
on initiatives, many of which have been hanging out there for a 
long period of time. Know that I look forward to working with 
you.
    I am going to yield the rest of my time here to Senator 
Udall, and thank you for being here this morning.
    Mr. Wheeler. Thank you.

                           METHYLENE CHLORIDE

    Senator Udall. Thank you, Madam Chair.
    We are, as you know, Administrator Wheeler, almost 3 years 
since the passage of overwhelming bipartisan reform of TSCA, 
and I know you are aware how involved I was in that. So you can 
imagine my disappointment when the very first chemical 
regulation you took, methylene chloride, was a watered-down 
rule that walks back protections for workers.
    EPA recently finalized a ban on all consumer uses of the 
methylene--chemical methylene chloride in paint strippers. 
Inexplicably, the ban failed to cover workers, as the 
originally proposed ban did, despite the fact that the vast 
majority of more than 50 deaths from this chemical have 
occurred in the workplace.
    In fact, I have met with the mother of Kevin Hartley, who 
died at age 21 while working, using a methylene chloride-based 
stripper he had been trained to use. We know that people are 
dying using these strippers on the job.
    In finalizing the consumer ban, EPA found unreasonable risk 
of acute human lethality. That means that EPA has already found 
that this chemical in paint strippers and coating removers 
poses an unreasonable risk of acute human lethality. Is that 
correct that you found that?
    Mr. Wheeler. Yes. I believe that is correct, but you are 
being very specific. I would like to get back to you on that 
line.

    [The information follows:]
                           methylene chloride
    On March 27, 2019, EPA published a final rule on methylene 
chloride. In that final rule, EPA determined that the use of methylene 
chloride in consumer paint and coating removal presents an unreasonable 
risk of injury to health due to acute human lethality. While EPA 
previously proposed a determination of unreasonable risk from the use 
of methylene chloride in commercial paint and coating removal, EPA did 
not finalize that determination in this rule. EPA is soliciting 
comment, through an advance notice of proposed rulemaking (ANPRM) 
published separately from the final rule for consumer paint and coating 
removal use. The ANPRM focusses on questions related to a potential 
training, certification, and limited access program as an option for 
risk management for all of the commercial uses of methylene chloride in 
paint and coating removal.

    Senator Udall. I believe you have made the finding----
    Mr. Wheeler. Yes.
    Senator Udall [continuing]. Unreasonable risk of acute 
human lethality. I am using the actual words of your agency, 
and the answer clearly is yes.
    Mr. Wheeler. Yes.
    Senator Udall. EPA found that this chemical in paint 
strippers and coating removers posts an unreasonable risk of 
acute human lethality, and the EPA is aware that workers have 
died using this product on the job. Is that correct?
    Mr. Wheeler. That is, but what we did was institute a 
comment period for training and certification, which has never 
been in place before. During the comment period, if we 
determine that we cannot have a program that we are guaranteed 
training and certification that we will safeguard the workers, 
then we can move to ban it for the workers as well.
    Senator Udall. Yes. Well, the young man that I spoke about 
was trained, and he----
    Mr. Wheeler. But he was not trained by a program set up by 
the Federal Government. That was a training by his employer or 
by the manufacturer. So what we are looking at is whether or 
not the product can be safely used by trained people under a 
training and certification program by the EPA and the Federal 
Government.

                        PFOS/PFOA CONTAMINATION

    Senator Udall. Well, I understand you have a preproposal to 
consider measures that could address any unreasonable risk that 
EPA could potentially find to be presented by methylene 
chloride when used for commercial paint and coating removal. 
But we know that the EPA has already found that there are 
unreasonable risks of human lethality from methylene chloride, 
and we know that workers are at risk.
    To me, it is clear that workers as well as consumers need 
protection. I know that Kevin Hartley's mother, Wendy, would 
agree with that. This is not the TSCA reform we all spent so 
much time and effort working on.
    Now I would like to turn quickly to an important regulatory 
issue that EPA is working on in my home State. That is the 
cleanup of the chemical PFOS.
    As you know, Mr. Administrator, the way the EPA is set up 
to interact with the State environment departments is very 
different from how other agencies are set up. State environment 
departments have delegated authority, as we have talked about 
here, for things like the Safe Water Drinking Act and the 
Resource Recovery Act.
    So EPA delegates primary enforcement responsibility to 
States and Indian tribes to clean up the contamination. As you 
probably know, the State of New Mexico is currently trying to 
compel the Air Force to clean up PFOS contamination of 
groundwater that has resulted from firefighting foam used at 
two Air Force Bases in New Mexico, and now there is also 
ongoing litigation.
    Given that the New Mexico Environment Department has 
primacy and delegation agreements from EPA, I think the EPA is 
obligated to provide technical and legal assistance on 
groundwater cleanup on these matters. Will you commit to 
provide EPA's assistance to the State of New Mexico's 
Environment Department as they work to clean up PFOS 
contamination?
    Mr. Wheeler. It is my understanding we have already offered 
assistance to them. If we have not, we certainly will, but we 
have worked with a couple dozen States and local communities on 
enforcement actions for PFOS/PFOA across the country, and I do 
not know why we would not do that for New Mexico.
    Senator Udall. We are happy to have that commitment.
    The tricky part--and, Mr. Chairman, I just want to clarify 
this. The very tricky part is they are in litigation with the 
Department of Justice and----
    Mr. Wheeler. I understand.
    Senator Udall [continuing]. The Department of Defense. So 
we hope that the information you share with the State, it is 
not shared with their opponents, that it can be held 
confidential, because are in an unusual situation where the Air 
Force is trying to push down the standards. And the Department 
of Defense--there are a lot of reports on this-- they want the 
PFOS standards to be lower.
    So it is important to us that you share information with 
New Mexico on a confidential basis. Can you do that?
    Mr. Wheeler. Yes. We do that with Federal facilities all 
around the country in a number of different statutes.
    Senator Udall. Thank you very much.
    Back to the Chairman.
    Senator Blunt [presiding]. Thank you, Senator Udall.
    Thank you, Administrator Wheeler, for being with us today.
    Mr. Wheeler. Thank you.
    Senator Blunt. The record will stay open for 1 week for 
additional questions and your responses.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Andrew Wheeler
             Questions Submitted by Senator Lisa Murkowski
                           diesel generators
    Question. Many remote Alaskan Villages use diesel generators to 
generate power for their communities. EPA regulation on such generators 
requires that any diesel generator purchased after Model Year 2014 is 
required to have a ``Diesel Particulate Filter'' installed if it is 
used as the primary power generator. These filters have a high failure 
rate and even simple upgrades can be difficult. This regulation carries 
a very high cost of compliance that many rural Alaskan communities 
cannot bear.
    In our hearing on April 3, you stated that EPA would take action to 
provide regulatory relief to these Alaskan communities through an 
amended regulation. Can you provide us with a timeline for EPA's 
planned regulatory actions on providing relief on this issue?
    Answer. The EPA is working to amend the standards of performance 
for stationary compression ignition (CI) internal combustion engines to 
address these issues. We issued a direct final rule and parallel 
proposed rule in June 2019. The direct final rule was withdrawn due to 
adverse comments. We are working on responding to the comments and 
consider those comments when preparing a final rule.
                             iris handbook
    Question. The lack of transparency in the Integrated Risk 
Information System (IRIS) Program and its process continues to be of 
concern. Releasing the already delayed IRIS handbook will be a critical 
tool to bring more clarity and transparency to the IRIS process.
    When can we expect the handbook to be made available for public 
review and comment? Is there a schedule for having the handbook placed 
into operation? And will the handbook clearly describe the Agency's 
process for evaluating and integrating scientific data?
    Answer. To ensure transparency and consistency across assessments, 
the IRIS Handbook was developed and implemented internally as a 
standard operating procedures document for staff in the IRIS Program. 
The goal is to also release the handbook for public comment and peer 
review when broader Agency review is complete. In the meantime, 
chemical-specific IRIS products provide detailed descriptions of the 
systematic review methods applied to each assessment. A number of these 
products were recently released for public comment early in the draft 
development process (https://www.epa.gov/iris).
                                 ______
                                 
             Question Submitted by Senator Cindy Hyde-Smith
                               tire crumb
    Question. I understand a report on Recycled Tires Used on Playing 
Fields is past due but imminent and realize the study is not yet 
complete.
    When this information is released to the public, will it answer the 
questions of any associated exposure risks in artificial turf or 
playgrounds as the public and industry have been seeking?
    Answer. The timeline the EPA, Centers for Disease Control (CDC), 
Agency for Toxic Substances and Disease Registry (ATSDR), and the U.S. 
Consumer Product Safety Commission (CPSC) initially set for the 
research activities included under the Federal Research Action Plan 
(FRAP) on Recycled Tire Crumb Rubber Used on Synthetic Turf Playing 
Fields and Playgrounds has been affected by a number of factors 
including the time needed to obtain important Federal approvals and the 
need to address external peer review comments.
    A goal of the FRAP is to characterize potential human exposures to 
the substances contained in recycled tire crumb rubber used on 
synthetic turf fields. Results of the effort will be reported in two 
parts. Part 1 (Recycled Tire Crumb Characterization report) 
communicates the research objectives, methods, results, and findings 
for the tire crumb rubber characterization research (i.e., what is in 
the material). Part 1 was released to the public on July 25, 2019. In 
general, the findings from the report support the premise that while 
chemicals are present, as expected, in the tire crumb rubber, human 
exposure may be limited based on what is released into air and/or 
simulated biological fluids. Part 2, to be released at a later date, 
will document the results from the exposure characterization (i.e., how 
people come in contact with the materials, how often, and for how 
long), including a biomonitoring study being conducted by CDC/ATSDR. 
CPSC is conducting the work on playgrounds and results from that effort 
will be reported separately.
    When finalized, neither Part 1 nor Part 2 of this study, separately 
or combined, will constitute an assessment of the risks associated with 
playing on synthetic turf fields with recycled tire crumb rubber 
infill. When this study was ordered in 2016, it was not supposed to be 
a risk assessment. The results of the research described in the final 
versions of both Part 1 and Part 2 of this study should inform future 
risk assessments.
    For more information, please visit: https://www.epa.gov/chemical-
research/federal-research-recycled-tire-crumb-used-playing-fields.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    peer review of ``application of systematic review in tsca risk 
         evaluations'' document by national academy of sciences
    Question. In your January 2019 letter to Senator Tom Carper, you 
stated that EPA would ``promptly submit the methodology for deciding 
how to collect and evaluate scientific research related to a chemical's 
safety that was recently developed by the Office of Chemical Safety and 
Pollution Prevention (OCSPP) to the National Academy of Sciences (NAS) 
for peer review and feedback and, at the same time EPA will use the 
Frank R. Lautenberg Chemical Safety for the 21st Century Act Section 
26(o) mandated advisory committee, a FACA committee, whose purpose is 
to provide independent advice and expert consultation with respect to 
the scientific and technical aspects of issues related to TSCA, to 
provide its independent advice on the methods used by OCSPP to collect 
and evaluate scientific research in the first 10 risk evaluations. I 
also commit to make public the review, feedback and any recommendations 
received from both the NAS and the advisory committee within 30 days of 
their receipt. Finally, EPA will incorporate feedback and 
recommendations as appropriate.''
    Have you submitted this methodology to the NAS and to EPA's 
advisory committee?
    Answer. The current systematic review approach document is 
available online for public review and the link to the document and the 
public comments has been shared with the EPA's Scientific Advisory 
Committee on Chemicals (SACC).
    The EPA's Office of Chemical Safety and Pollution Prevention 
(OCSPP) has been working with the NAS to engage the Academy in 
reviewing EPA's Systematic Review Method for TSCA risk evaluations. EPA 
awarded a contract to the NAS in July of 2019 and the Task Order 
specific to this effort was executed in December of 2019. NAS will hold 
one public meeting and issue a report by June of 2020.
    The SACC was established under the authority of the Toxic 
Substances Control Act (TSCA) to provide independent scientific advice 
and recommendations to EPA. During the first peer review meeting, the 
SACC received a briefing on this document and how it was implemented. 
In the charge questions for the SACC on the first chemicals to undergo 
peer review (pigment violet 29, HBCD, 1,4-dioxane, and 1-bromopropane), 
EPA received feedback on the systematic review procedure in the context 
of its use for the particular chemical evaluation. We look to 
incorporate both these comments as well as those from the NAS into 
potential future updates into our systematic review procedure.
    Question. If yes, on what date, and when do you expect to receive 
feedback or recommendations?
    Answer. EPA received feedback on the systematic review procedure in 
the context of its use for the particular chemical during the SACC 
review of pigment violet 29, held from June 18 to 21, 2019, HBCD and 
1,4-dioxane, held from July 29 to August 2, 2019, and 1-bromopropane, 
held from September 10 to 12, 2019. The EPA's Office of Chemical Safety 
and Pollution Prevention (OCSPP) has been working with the National 
Academies of Science (NAS) to engage the Academy in reviewing EPA's 
Systematic Review Method for TSCA risk evaluations. EPA awarded a 
contract to the NAS in July of 2019 and recently issued a task order to 
the contract which includes the charge questions to the Academy along 
with the necessary timeframe for the work to be completed.
    Question. If no, why not?
    Answer. The EPA's Office of Chemical Safety and Pollution 
Prevention (OCSPP) has been working with the National Academies of 
Science (NAS) to engage the Academy in reviewing EPA's Systematic 
Review Method for TSCA risk evaluations. EPA awarded a contract to the 
NAS in July of 2019. EPA recently issued a task order to the contract 
that includes the charge questions to the Academy along with the 
necessary timeframe for the work to be completed.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                         fuel economy standards
    Question. Administrator Wheeler, I have been a long-time champion 
of the fuel economy standards. In 2007, the Ten-in-Ten Fuel Economy Act 
became law. This followed a decade-long effort and is a testament to 
bipartisan cooperation.
    This law sets requirements for fuel economy standards to be carried 
out by the Secretary of Transportation. Similar requirements for 
vehicle emission standards under the Clean Air Act and carried out by 
EPA and the State of California. All three of these authorities are 
today implemented as a single, coordinated national program.
    As a result, new cars are on a path to surpass 50 miles per gallon 
by 2025, saving more than $79 million in fuel costs for American 
families and 250 million metric tons of carbon dioxide. I strongly 
believe we should maintain this successful program.
    Unfortunately, the administration has decided not to preserve the 
coordinated national program of standards. Rather than work with 
California, you have publicly cancelled negotiations and proposed to 
overturn the State's authority over air pollution. If this is the 
approach you take, it will only lead to litigation and failure.
    Before you finalize a rule that undermines the national program of 
standards, I urge you to reconsider your approach.
    Administrator Wheeler, when do you expect to issue your final rule 
for the 2022 to 2025 standards?
    Answer. Despite the administration's best efforts to reach a 
common-sense solution, the EPA, DOT, and the White House have 
acknowledged that California has failed to put forward an actual 
alternative since the SAFE Vehicles Rule was proposed. Accordingly, the 
administration is moving forward to finalize a rule with the goal of 
promoting safer, cleaner, and more affordable vehicles. The agencies 
sought comment on a wide range of stringency alternatives and received 
numerous comments on the proposal. The EPA will carefully consider the 
public comments, data and information we have received as we continue 
to develop the final rule.
    Question. If the administration refuses to reach an agreement with 
California, that guarantees a lengthy court battle. Who does that 
benefit?
    Answer. Despite the administration's best efforts to reach a 
common-sense solution, the EPA, DOT, and the White House have 
acknowledged that California has failed to put forward an actual 
alternative since the SAFE Vehicles Rule was proposed. Accordingly, the 
administration is moving forward to finalize a rule with the goal of 
promoting safer, cleaner, and more affordable vehicles. The agencies 
sought comment on a wide range of stringency alternatives and received 
numerous comments on the proposal. The EPA will carefully consider the 
public comments, data and information we have received as we continue 
to develop the final rule.
    Question. Do you intend to maintain the standards on a path to 
surpass 50 miles per gallon, or will you hold them to less than a 1 
percent increase per year?
    Answer. Despite the administration's best efforts to reach a 
common-sense solution, the EPA, DOT, and the White House have 
acknowledged that California has failed to put forward an actual 
alternative since the SAFE Vehicles Rule was proposed. Accordingly, the 
administration is moving forward to finalize a rule with the goal of 
promoting safer, cleaner, and more affordable vehicles. The agencies 
sought comment on a wide range of stringency alternatives and received 
numerous comments on the proposal. The EPA will carefully consider the 
public comments, data and information we have received as we continue 
to develop the final rule.
                          region 9--leadership
    Question. Administrator Wheeler, I have serious concerns about the 
leadership in Region 9. Last year, I raised these concerns before Mr. 
Stoker was appointed, and my concerns have recently been validated by 
EPA's Office of the Inspector General. According to an EPA inspector 
general alert dated March 2019, from May 2018 through January 2019, 
Region 9 Administrator Mike Stoker spent 50 percent of his time on 
official travel, 16 percent teleworking, 20 percent in the San 
Francisco regional office, and 13 percent of his official time in the 
Los Angeles field office. This is unacceptable.
    a.  Administrator Wheeler, it is very difficult to lead a team 
while absent. Is there a legitimate need for Region 9 Administrator 
Stoker's constant travel instead of being present to lead his team?
    b.  Is his travel an appropriate use of taxpayer money?
     c.  I understand Mr. Stoker may view his role as an 
``ambassador.'' Ambassadors also have staff on the ground to meet with 
stakeholders. Wouldn't it be more appropriate and fiscally responsible 
to have local staff meet with stakeholders instead of constantly 
sending the Region 9 Administrator?
    d.  Stoker refused to move closer to the San Francisco regional 
office, even though 93 percent of the staff live there. He prefers to 
live by the Los Angeles Field office, where only 3 percent of staff 
live, yet still spent 16 percent of his time teleworking verses 13 
percent actually in the Los Angeles field office, where he chose to be 
based. This seems like an ineffective way to work and a waste of 
resources. Do you believe Mr. Stoker can run an entire region in this 
manner?
    e.  In addition, Stoker appointed a Chief of Staff who lives in Las 
Vegas where, according to the OIG report, no other staff are located. 
Do you believe a Chief of Staff can be effective if he lives in a 
different State than the vast majority of the staff?
    Answer. The work of senior level positions at the EPA is and must 
be highly portable. That is especially true with the positions of 
regional administrators whom we expect to regularly travel throughout 
their regions and be accessible to State regulators, the regulated 
community, and a wide variety of stakeholders. In fact, the EPA already 
recognizes and has for some time the portability of senior career 
positions by authorizing regular travel throughout the country and 
among EPA offices to allow those individuals to perform their 
responsibilities. In the case of regional administrators and other 
senior level positions, policy setting and managerial duties are often 
done from remote locations, either because the individual is traveling 
to meetings or because they are connected by phone or video 
conferencing to national meetings. We want to continue to encourage 
that at the EPA because it has been so well received.
    Concerning Mr. Stoker, in particular, the EPA evaluated where he 
should be best placed when he joined the Agency in May 2018. Since his 
appointment, Mr. Stoker has demonstrated that he has been able to 
perform his duties of regional administrator while maintaining a 
regular travel schedule placing him in San Francisco, Los Angeles, and 
many locations elsewhere in Region 9. Nevada also is within Region 9. 
Having a political appointee working in an EPA office in a State other 
than California within Region 9 is very important. Finally, the EPA has 
another political appointee working as a senior advisor to Mr. Stoker 
working in San Francisco. I think it is important to point out, 
although I know it is not your intent, but your question does not 
recognize that Region 9 has very capable senior career staff who help 
lead the programs and the hundreds of EPA employees in Region 9.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                               pfas/pfoa
    Question. There are communities in Vermont and across the county 
that are facing toxic contamination from per- and polyfluoroalkyl 
substances (PFAS/PFOA) as a result of industrial manufacturing and a 
lack of property monitoring, reporting, and protections for drinking 
water source quality. The EPA has now released its plan to address the 
widespread PFAS/PFOA contamination.
    What specific kinds of guidance and resources will the EPA provide 
for communities and States dealing with PFAS/PFOA contamination?
    Answer. The EPA released the PFAS Action Plan that identifies both 
short-term approaches for addressing PFAS chemicals and long-term 
strategies that will help provide the tools and technologies States, 
Tribes, and local communities need to clean up sites and provide clean 
and safe drinking water to their residents.
    Consistent with the Plan, the EPA released draft interim guidance 
for addressing groundwater contaminated with PFOA and/or PFOS for 
public review and comment. These draft recommendations are designed to 
help protect human health in communities across the country by 
providing clear guidance on addressing PFOA and PFOS in groundwater in 
a consistent manner under Federal cleanup programs and may also be 
useful for State and Tribal cleanup programs, and in carrying out other 
Federal regulatory authorities (e.g., Federal facility cleanup 
programs, approved State Resource Conservation and Recovery Act 
corrective action programs.)
    The PFAS Action Plan is the first-ever multi-media, multi-program, 
national research, management, and risk communication plan to address a 
challenge like PFAS. The Plan identifies short-term solutions for 
addressing these chemicals, and long-term strategies that will help 
provide the tools and technologies that States, Tribes, and local 
communities need to provide clean and safe drinking water to their 
residents. The EPA is making progress on the PFAS Action Plan by 
developing tools and expanding the body of scientific knowledge needed 
to understand and effectively manage risk from PFAS compounds. 
Additionally, the EPA has conducted sampling, testing, and 
identification of PFAS substances in 32 States and the District of 
Columbia through our Superfund program.
    As noted in the Plan, the EPA is working with partners to develop 
and disseminate sampling, measurement, risk communication, and 
treatment tools to help communities and stakeholders prevent and 
mitigate exposure to PFAS chemicals. For example, the EPA intends to 
continue to update the Drinking Water Treatability Database for PFAS 
chemicals, including treatability and cost information for different 
technologies and additional PFAS chemicals of concern.
    As discussed in the plan, the EPA is also developing new analytical 
methods and tools for detecting, understanding, and managing PFAS 
chemical risk. For example, the EPA expanded the current drinking water 
Method 537 to include GenX chemicals and additional PFAS chemicals. 
Furthermore, the agency is developing a new drinking water method for 
additional short-chain PFAS chemicals not measured by Method 537. The 
EPA is also developing and validating methods for other water matrices 
(wastewater, surface waters, groundwater), solids (soil, sediment, 
biosolids, fish tissue), and air (ambient air, stack emission, off-
gases).
    Additionally, the EPA is coordinating with Federal, State, Tribal, 
and local partners to provide information about PFAS chemical 
detections for government and public users in areas related to 
sampling, data sharing, and data evaluation. This coordination includes 
working with other agencies on PFAS-related research, in areas that 
encompass toxicology studies of a broad number of PFAS, with the 
National Institute of Environmental Health Sciences National Toxicology 
Program. Additionally, the EPA is working with other Federal agencies 
such as the Agency for Toxic Substances and Disease Registry, the Food 
and Drug Administration, the United States Department of Agriculture, 
and the Department of Defense to examine PFAS exposures and to ensure 
we are providing clear and consistent risk communications. The 
coordination with other agencies encompasses many aspects of matrices 
of concern for addressing PFAS.
    Question. What is the specific timeline for the EPA's establishment 
of a maximum contaminant (MCL) for PFAS/PFOA in drinking water, and how 
does this compare to the EPA's timeline for establishing MCL's for 
other chemicals?
    Answer. The EPA is committed to following the Maximum Contaminant 
Level rulemaking process as established by the Safe Drinking Water Act. 
As the next step in this process, a regulatory determination which 
includes the PFOA and PFOS chemicals, is currently under Executive 
Order 12866 review. Once finalized, the EPA will then work through the 
rulemaking process as expeditiously as possible.
                          geographic programs
    Question. Your budget proposes eliminating or dramatically cutting 
every one of the EPA's Geographic Programs in the 2020 budget.
    What specific factors led to your determination this funding is no 
longer necessary? Does the Trump administration claim that these lakes, 
bays, gulfs, and other regions are all cleaned up and their problems 
solved?
    Answer. The EPA's fiscal year 2020 budget request focuses on 
funding to maintain core environmental protection programs with a 
national scope and returns responsibility for regional and local 
environmental work to State and local entities.
    The Budget reflects the EPA's role on core programs at the Agency 
while working with our State and Tribal partners and is guided by 
congressional direction core environmental statutory, and regulatory 
obligations, and encourages local entities to continue to make 
progress. However, we have many other programs which support the goals 
of these geographic programs.
    Question. Just weeks after his budget proposed a 90 percent cut to 
the EPA's Great Lakes Restoration Initiative, President Trump reversed 
his position at a campaign event in Grand Rapids, Michigan, a reversal 
that you have now supported. What new information led you and President 
Trump to change your mind about cutting more than $65 million from the 
Great Lakes program?
    Answer. The EPA is committed to working with Congress, as well as 
our Federal and State partners, to protect human health, support 
economic growth, and improve environmental conditions for Americans 
that live and work in the Great Lakes region.
    Question. Now that your position on Great Lakes restoration has 
supposedly changed, do you also plan to reverse your position on other 
water quality programs such as the Lake Champlain program that the 
budget eliminates?
    Answer. The EPA's fiscal year 2020 budget request focuses on 
funding to maintain core environmental protection programs with a 
national scope and returns responsibility for regional and local 
environmental work to State and local entities.
    The Budget reflects the EPA's role on core programs at the Agency 
while working with our State and Tribal partners and is guided by 
Congressional direction core environmental statutory, and regulatory 
obligations, and encourages local entities to continue to make 
progress.
    Question. Does the EPA plan to submit an amended budget request to 
fund the EPA's Geographic Programs, as required? When can the Committee 
expect to receive this amended request? What will you use for an 
offset?
    Answer. Amended budget requests are submitted by the Office of 
Management and Budget. The amendment package was sent on May 13, 2019.
                    new source performance standards
    Question. In August 2018, the EPA proposed to modify the New Source 
Performance Standards (NSPS) to extend the sell-through for new 
residential hydronic and new forced-air furnaces through May 2022 in 
order to provide manufacturers and retailers additional time to sell 
units that were compliant at the time of their production, and to ease 
the transition to the NSPS emissions reductions.
    Why did the EPA not also propose extending the sell-through for 
residential wood and pellet stoves?
    Answer. The proposed amendments to the New Source Performance 
Standards (NSPS) for Residential Wood Heaters would allow retailers 
additional time to sell the existing inventory of hydronic heaters and 
forced-air furnaces. The EPA also took comment on a similar sell- 
through provision for wood stoves and on whether the pellet fuel 
requirements should be revised. In addition, the EPA issued an Advance 
Notice of Proposed Rulemaking (ANPR) to seek comment on several aspects 
of the 2015 NSPS, including the feasibility of the upcoming May 2020 
compliance date for manufacturers of hydronic heaters and forced-air 
furnaces to meet a second, more stringent emission limit, known as the 
Step 2 limit. The EPA did not propose a sell-through for wood and 
pellet stoves because at the time of proposal, there were roughly 78 
wood/pellet stoves that were certified to meet the Step 2 limit. There 
were only 9 hydronic heaters and 1 forced air furnace meeting the Step 
2 limit at the time of proposal.
    The EPA received 366 comments in response to the proposed 
amendments from manufacturers, retailers/distributors, pellet fuel 
industry, States, private citizens, and health and environmental 
organizations and 39 comments in response to the ANPRM. The EPA is 
reviewing the public comments to inform the next steps.
                        emission standards rule
    Question. John Graham, an environmental adviser appointed to the 
EPA's Science Advisory Board by former Administrator Pruitt, has 
predicted that the EPA's proposed rule to scale back vehicle emissions 
standards would stall long-term automotive innovation and ultimately 
increase costs to consumers as they are forced to spend more money on 
gasoline. The analysis estimates that the new rule would lead to the 
creation of 236,000 fewer jobs than if the Obama administration rule 
were left in place. The EPA's emissions rule would stall American 
ingenuity, thwart job creation and technological advances, and cut 
Americans out of the coming green economic boon.
    Upon what analysis is the EPA or the administration relying for 
this new emissions rule?
    Answer. In the SAFE Vehicles proposal, the EPA and the National 
Highway Traffic Safety Administration (NHTSA) estimated that the 
proposed revisions would result in a $2,260 decrease in the average 
price of new vehicles. More information on the analysis for the SAFE 
Vehicles proposal is available at: Docket No. EPA-HQ-OAR-2018-0283. 
Commenters provided views and information on these issues, as well as 
comments related to impacts on the competitiveness of the U.S. auto 
industry. The EPA will carefully consider these comments as we develop 
the final rule.
    Question. As the international automobile market continues to 
invest in fuel efficient vehicles, how will you ensure that easing 
standards on purely domestic vehicles will not jeopardize U.S. 
competitiveness?
    Answer. Please see answer shown above.
                      clean water act--definition
    Question. Current estimates predict that for every, one mile of 
mapped streams in the United States, there are 1.5 miles of unmapped 
ephemeral streams that flow inconsistently but play a critical role in 
the interconnectivity of the Nation's water system, provide ecosystem 
services, and impact drinking water quality.
    Does the EPA have a plan to more accurately determine exactly how 
much water would lose protection under the Clean Water Act with the 
implementation of the more restrictive Waters of the United States 
definition?
    Answer. The proposed definition of ``waters of the United States'' 
would provide a straightforward definition that would protect the 
Nation's navigable waters, help sustain economic growth, and reduce 
barriers to business development. This proposed rule provides clarity, 
predictability, and consistency with the goal of the regulated 
community being able to more the regulated community can easily 
understand where the Clean Water Act applies--and where it does not. 
The EPA and the Department of the Army's proposal is consistent with 
the statutory authority that was given to the agencies by Congress, the 
legal precedent set by key Supreme Court cases, and the February 2017 
Executive Order entitled ``Restoring the Rule of Law, Federalism, and 
Economic Growth by Reviewing the `Waters of the United States' Rule.''
    The EPA and the Department of the Army provided supporting 
documentation for the proposed ``Waters of the United States'' rule in 
the Resource and Programmatic Assessment for the Proposed Revised 
Definition of `Waters of the United States' and Economic Analysis for 
the Proposed Revised Definition of `Waters of the United States.' These 
documents estimate, where possible, how the proposed definition might 
affect categories of water resources across the country and potential 
effects on Clean Water Act programs. The agencies have also identified 
significant data limitations that prevent quantitative national 
estimates of the potential change in jurisdictional waters, due in 
large part to the fact there is no nationwide map depicting ``waters of 
the United States'' under previous regulations or waters that would be 
jurisdictional under the proposed rule.
    Regarding existing information, State-based information on 
ephemeral, intermittent, and perennial stream miles and wetland 
acreage, as mapped in the National Hydrography Dataset and National 
Wetlands Inventory, is presented in Table A-1 of the Economic Analysis. 
However, the numbers and percentages of streams and wetlands by 
category presented in Table A-1, do not equate to a quantification of 
waters that would or would not be jurisdictional under the proposed 
rule or existing regulation. The agency will consider any data on water 
resources submitted during the public comment process as it develops a 
final rule. Recognizing the limitations of existing datasets to 
characterize jurisdictional waters, the agencies solicited comment in 
the proposed rule preamble on partnering with States, Tribes, and other 
Federal agencies to develop geospatial datasets of waters of the United 
States that could be developed over time and made publicly available. 
The agencies are currently in the process of scoping out this effort 
and considering public comments.
    Question. How will the EPA respond to the tens of thousands of 
comments already received on this new rule? What is the timeline for 
addressing those responses?
    Answer. The comment period for the proposed rule closed on April 
15, 2019. The EPA and the Army are currently in the process of 
reviewing the comments and will develop responses and are working 
toward finalizing the rule this winter.
                           methylene chloride
    Question. The recent final rule issued by the EPA to prevent the 
consumer use of methylene chloride is a positive step but falls well 
short of the complete ban proposed by President Obama. You have said 
that the EPA plans to determine if there is a safe way to train 
employees for commercial use of this highly toxic chemical.
    Will there be a temporary ban while the EPA determines whether or 
not such a training exists? If not, why not?
    Answer. No. The EPA is soliciting comment, through an advance 
notice of proposed rulemaking (ANPRM), on questions related to a 
potential training, certification, and limited access program as an 
option for risk management for commercial uses of methylene chloride in 
paint and coating removal. On March 27, 2019, the EPA issued a final 
rule to ban the manufacture (including import), processing, and 
distribution of methylene chloride in all paint and coating removers 
for consumer use, among other requirements. The EPA is also conducting 
a risk evaluation on the remaining conditions of use of methylene 
chloride, including as paint and coating remover for commercial users, 
and will finalize this risk evaluation in accordance with the statutory 
deadlines of TSCA.
    Question. Does the EPA plan to establish one universal training and 
certification program required by all commercial users of this 
chemical? Considering you have proposed a $12 million cut to compliance 
monitoring, what will the EPA technical assistance and enforcement look 
like should a program be agreed upon?
    Answer. The EPA is currently accepting public comment on an ANPRM 
to solicit public input on training, certification, and limited access 
requirements that could address any unreasonable risks that the EPA 
could potentially find to be presented by methylene chloride when used 
for commercial paint and coating removal. Such a program could allow 
access to paint and coating removal products containing methylene 
chloride only to commercial users who are certified as properly trained 
to engage in use practices that do not present unreasonable risks. It 
is premature to predict the approach and future year budget resources 
for implementation if the EPA finalizes a determination of unreasonable 
risk and then addresses it through a training, certification, and 
limited access program for commercial paint and coating removal.

                          SUBCOMMITTEE RECESS

    Senator Blunt. This Committee is adjourned.
    Mr. Wheeler. Thank you.
    [Whereupon, at 10:32 a.m., Wednesday, April 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
